Evaluation Report




OIG-CA-14-006
INFORMATION TECHNOLOGY: The Department of the Treasury
Federal Information Security Management Act Fiscal Year 2013
Evaluation
November 25, 2013




Office of
Inspector General
Department of the Treasury
    THIS PAGE INTENTIONALLY LEFT BLANK
 
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            November 25, 2013


           MEMORANDUM FOR NANI COLORETTI
                          ASSISTANT SECRETARY FOR MANAGEMENT

                                   ROBYN EAST
                                   DEPUTY ASSISTANT SECRETARY FOR INFORMATION
                                     SYSTEMS AND CHIEF INFORMATION OFFICER

           FROM:                   Marla A. Freedman /s/
                                   Assistant Inspector General for Audit

           SUBJECT:                Evaluation Report – The Department of the Treasury’s Federal
                                   Information Security Management Act Fiscal Year 2013
                                   Evaluation

           We are pleased to transmit the following reports:

                •   The Department of the Treasury Federal Information Security Management
                    Act Fiscal Year 2013 Evaluation (Attachment 1), and

                •   Treasury Inspector General for Tax Administration – Federal Information
                    Security Management Act Report for Fiscal Year 2013 (Attachment 2).

           The Federal Information Security Management Act of 2002 (FISMA) requires
           federal agencies, including the Department of the Treasury (Treasury), to have an
           annual independent evaluation performed of their information security program and
           practices and to report the results of the evaluations to the Office of Management
           and Budget (OMB). OMB delegated its responsibility to the Department of
           Homeland Security (DHS) for the collection of annual FISMA responses. FISMA also
           requires that the independent evaluation be performed by the agency Inspector
           General (IG) or an independent external auditor as determined by the IG. To meet
           our FISMA requirements, we contracted with KPMG LLP (KPMG), an independent
           certified public accounting firm, to perform the FISMA evaluation of Treasury’s
           unclassified systems, except for those of the Internal Revenue Service (IRS), which
           was performed by TIGTA. KPMG conducted its evaluation in accordance with the
           Council of the Inspectors General on Integrity and Efficiency’s Quality Standards
           for Inspection and Evaluation.
Page 2


In its report, KPMG concluded that Treasury has established an information security
program and related practices for its non-IRS bureaus’ unclassified systems. The
information security program covers the 11 FISMA program areas: continuous
monitoring management, configuration management, identity and access
management, incident and response reporting, risk management, security training,
plan of action and milestones, remote access management, contingency planning,
contractor systems, and security capital planning. While Treasury did establish an
information security program and practices, KPMG identified needed improvements
in 5 of 11 FISMA program areas and made 11 recommendations to the responsible
officials to address the findings.

TIGTA reported that the IRS’s information security program generally complies with
FISMA, but improvements are needed. Specifically, TIGTA determined that 9 of the
11 security program areas were generally compliant with the FISMA requirements.
However, TIGTA reported that 2 IRS security program areas were not compliant
with FISMA requirements.

Based on the results reported by KPMG and TIGTA, we determined that while
Treasury’s information security program and practices for its unclassified systems
are in place and are generally consistent with FISMA, they could be more effective.
See appendix III of the attached KPMG report for The Department of the Treasury’s
Consolidated Response to DHS’s FISMA 2013 Questions for Inspectors General.

In connection with the contract with KPMG, we reviewed its report and related
documentation and inquired of its representatives. Our review was differentiated
from an evaluation performed in accordance with Council of the Inspectors General
on Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

If you have any questions or require further information, you may contact me at
(202) 927-5400, or Tram J. Dang, Director, Information Technology Audit, at
(202) 927-5171.

Attachments

cc: Edward A. Roback
    Associate Chief Information Officer
    Cyber Security
            ATTACHMENT 1

       The Department of the Treasury
Federal Information Security Management Act
         Fiscal Year 2013 Evaluation,
             November 18, 2013
    THIS PAGE INTENTIONALLY LEFT BLANK
 
The Department of the Treasury
Federal Information Security Management Act
Fiscal Year 2013 Evaluation




November 18, 2013




KPMG LLP
1676 International Drive, Suite 1200
McLean, VA 22102
                                 The Department of the Treasury
             Federal Information Security Management Act Fiscal Year 2013 Evaluation

                                                                Table of Contents

FISMA Evaluation Report
BACKGROUND .......................................................................................................................................... 3
  Federal Information Security Management Act (FISMA) ........................................................................ 3
  Department of the Treasury Bureaus/Offices (Bureaus) ........................................................................... 3
  Department of the Treasury Information Security Management Program................................................ 4
OVERALL EVALUATION RESULTS ....................................................................................................... 7
FINDINGS .................................................................................................................................................... 8
  1. Logical account management activities were not in place or not consistently performed by
      DO, Mint, and TIGTA ...................................................................................................................... 8
  2. Security incidents were not reported correctly at Fiscal Service and OIG........................................ 9
  3. FinCEN and Fiscal Service did not follow NIST guidance for SSPs ............................................. 10
  4. Contingency planning and testing controls were not fully implemented or operating as
      designed at TIGTA .......................................................................................................................... 11
  5. Evidence of successful completion of annual security awareness training was not retained
      for some users at OIG ..................................................................................................................... 11
MANAGEMENT RESPONSE TO THE REPORT ................................................................................... 12

Appendices
APPENDIX I – OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 18
APPENDIX II – STATUS OF PRIOR-YEAR FINDINGS ....................................................................... 22
APPENDIX III – THE DEPARTMENT OF THE TREASURY’S CONSOLIDATED RESPONSE TO
DHS’s FISMA 2013 QUESTIONS FOR INSPECTORS GENERAL ....................................................... 42
APPENDIX IV – APPROACH TO SELECTION OF SUBSET OF SYSTEMS ...................................... 54
APPENDIX V – GLOSSARY OF TERMS ............................................................................................... 56
                               KPMG LLP
                               1676 International Drive
                               McLean, VA 22102




Honorable Eric Thorson
Inspector General, Department of the Treasury
1500 Pennsylvania Avenue NW
Room 4436
Washington, DC 20220


Re: The Department of the Treasury’s Federal Information Security Management Act Fiscal
    Year 2013 Evaluation

Dear Mr. Thorson:

This report presents the results of our independent evaluation of the Department of the Treasury’s
(Treasury) information security program and practices. The Federal Information Security Management
Act of 2002 (FISMA) requires federal agencies, including the Treasury, to have an annual independent
evaluation performed of their information security programs and practices and to report the results of
the evaluations to the Office of Management and Budget (OMB). OMB has delegated its responsibility
to Department of Homeland Security (DHS) for the collection of annual FISMA responses. DHS has
prepared the FISMA 2013 questionnaire to collect these responses. Appendix III, The Department of
the Treasury’s Consolidated Response to DHS’s FISMA 2013 Questions for Inspectors General,
provides the Treasury’s response to the questionnaire. FISMA requires that the agency Inspector
General (IG) or an independent external auditor perform the independent evaluation as determined by
the IG. The Treasury Office of Inspector General (OIG) contracted with KPMG LLP (KPMG) to
conduct this independent evaluation.

We conducted our independent evaluation in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

The objective for this independent evaluation was to assess the effectiveness of the Treasury’s
information security program and practices for the period July 1, 2012 to June 30, 2013 for its
unclassified systems, including the Treasury’s compliance with FISMA and related information
security policies, procedures, standards, and guidelines. We based our work, in part, on a sample of
bureau-wide security controls and a limited selection of system-specific security controls across 15-
selected Treasury information systems. The scope of our work did not include the Internal Revenue
Service (IRS), as that bureau was evaluated by the Treasury Inspector General for Tax Administration
(TIGTA). The TIGTA report is appended to this report and the findings are included in Appendix III,
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2013 Questions for
Inspectors General. Additional details regarding the scope of our independent evaluation are included
in Appendix I, Objective, Scope & Methodology.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Consistent with applicable FISMA requirements, OMB policy and guidelines, and the National
Institute of Standards and Technology (NIST) standards and guidelines, the Treasury’s information
security program and practices for its non-IRS bureaus’ unclassified systems have established and are
maintaining security programs for the 11 FISMA program areas. 1 However, while the security program
has been implemented across the Treasury for its non-IRS bureaus, we identified 5 of 11 FISMA
program areas that needed improvements.

    1. Logical account management activities were not in place or not consistently performed by the
       Departmental Offices (DO), United States Mint (Mint), and TIGTA.
    2. Security incidents were not reported correctly at the Bureau of the Fiscal Service (Fiscal
       Service) and OIG.
    3. Financial Crimes Enforcement Network (FinCEN) and Fiscal Service did not follow NIST
       guidance for System Security Plans (SSPs).
    4. Contingency planning and testing controls were not fully implemented or operating as
       designed at TIGTA.
    5. Evidence of successful completion of annual security awareness training was not retained for
       some users at OIG.

We have made 11 recommendations related to these control deficiencies that, if effectively addressed
by management, should strengthen the respective bureaus, offices, and the Treasury’s information
security program. In a written response, the Treasury Chief Information Officer (CIO) agreed with our
findings and recommendations and provided corrective action plans (see Management Response).
Treasury’s planned corrective actions are responsive to the intent of our recommendations and will be
evaluated as part of the FY 2014 independent evaluation. We caution that projecting the results of our
evaluation to future periods is subject to the risks that controls may become inadequate because of
changes in technology or because compliance with controls may deteriorate.

Appendix I describes the FISMA evaluation’s objective, scope, and methodology. Appendix II, Status
of Prior-Year Findings, summarizes the Treasury’s progress in addressing prior-year
recommendations. Appendix III provides The Department of the Treasury’s Consolidated Response to
DHS’s FISMA 2013 Questions for Inspectors General. Appendix IV, Approach to Selection of Subset
of Systems, describes how we selected systems for review. Appendix V contains a glossary of terms
used in this report.

Sincerely,



November 18, 2013


1
  The 11 FISMA program areas are: continuous monitoring management, configuration management, identity and access
management, incident and response reporting, risk management, security training, plan of action and milestones, remote
access management, contingency planning, contractor systems, and security capital planning.




                                                                                                                    Page 2
The Department of the Treasury FISMA Evaluation - 2013
BACKGROUND
Federal Information Security Management Act (FISMA)

Title III of the E-Government Act of 2002 (the Act), commonly referred to as FISMA, focuses on
improving oversight of federal information security programs and facilitating progress in correcting
agency information security weaknesses. FISMA requires federal agencies to develop, document, and
implement an agency-wide information security program that provides security for the information and
information systems that support the operations and assets of the agency, including those provided or
managed by another agency, contractor, or other source. The Act assigns specific responsibilities to
agency heads and Inspectors Generals (IGs) in complying with requirements of FISMA. The Act is
supported by the Office of Management and Budget (OMB), agency security policy, and risk-based
standards and guidelines published by National Institute of Standards and Technology (NIST) related to
information security practices.

Under FISMA, agency heads are responsible for providing information security protections
commensurate with the risk and magnitude of harm resulting from the unauthorized access, use,
disclosure, disruption, modification, or destruction of information and information systems. Agency heads
are also responsible for complying with the requirements of FISMA and related OMB policies and NIST
procedures, standards, and guidelines. FISMA directs federal agencies to report annually to the OMB
Director, the Comptroller General of the United States, and selected congressional committees on the
adequacy and effectiveness of agency information security policies, procedures, and practices and
compliance with FISMA. OMB has delegated some responsibility to the Department of Homeland
Security (DHS) in memorandum M-10-28, Clarifying Cybersecurity Responsibilities and Activities of the
Executive Office of the President and the Department of Homeland Security, for the operational aspects of
Federal cyber security, such as establishing government-wide incident response and operating the tool to
collect FISMA metrics. In addition, FISMA requires agencies to have an annual independent evaluation
performed of their information security programs and practices and to report the evaluation results to
OMB. FISMA states that the independent evaluation is to be performed by the agency IG or an
independent external auditor as determined by the IG.

Department of the Treasury Bureaus/Offices (Bureaus)

The Department of the Treasury (Treasury) consists of 12 operating bureaus and offices, including:

     1. Alcohol and Tobacco Tax and Trade Bureau (TTB) – Responsible for enforcing and
        administering laws covering the production, use, and distribution of alcohol and tobacco
        products. TTB also collects excise taxes for firearms and ammunition.
     2. Bureau of Engraving and Printing (BEP) – Designs and manufactures United States paper
        currency, securities, and other official certificates and awards.
     3. Bureau of the Fiscal Service (Fiscal Service) – A composition of the legacy Bureau of the
        Public Debt (BPD) who was responsible for borrowing public debt, and the legacy Financial
        Management Service (FMS), which received and disbursed all public monies, maintained
        government accounts, and prepared daily and monthly reports on the status of government
        finances.
     4. Community Development Financial Institutions (CDFI) Fund – Created to expand the
        availability of credit, investment capital, and financial services in distressed urban and rural
        communities.
     5. Departmental Offices (DO) – Primarily responsible for policy formulation. DO, while not a
        formal bureau, is composed of offices headed by Assistant Secretaries, some of whom report to



                                                                                                     Page 3
The Department of the Treasury FISMA Evaluation - 2013
         Under Secretaries. These offices include domestic finance, economic policy, General Council,
         International Affairs, Legislative Affairs, Management, Public Affairs, Tax Policy, and
         Terrorism and Finance Intelligence. The Office of Cybersecurity, within the Office of
         Management, is responsible for the development of information technology (IT) Security
         Policy.
     6. Financial Crimes Enforcement Network (FinCEN) – Supports law enforcement investigative
         efforts and fosters interagency and global cooperation against domestic and international
         financial crimes. It also provides United States policy makers with strategic analyses of
         domestic and worldwide trends and patterns.
     7. Internal Revenue Service (IRS) – Responsible for determining, assessing, and collecting
         internal revenue in the United States.
     8. Office of the Comptroller of the Currency (OCC) – Charters, regulates, and supervises
         national banks and thrift institutions to ensure a safe, sound, and competitive banking system
         that supports the citizens, communities, and economy of the United States.
     9. Office of Inspector General (OIG) – Conducts and supervises audits and investigations of the
         Treasury programs and operations except for IRS which is under the jurisdictional oversight of
         the Treasury Inspector General for Tax Administration and the Troubled Asset Relief Program
         (TARP), which is under the jurisdictional oversight of the Special Inspector General. The OIG
         also keeps the Secretary and the Congress fully and currently informed about problems, abuses,
         and deficiencies in the Treasury programs and operations.
     10. United States Mint (Mint) – Designs and manufactures domestic, bullion, and foreign coins as
         well as commemorative medals and other numismatic items. The Mint also distributes United
         States coins to the Federal Reserve banks as well as maintains physical custody and protection
         of our nation’s silver and gold assets.
     11. Special Inspector General for the Troubled Asset Relief Program (SIGTARP) – Has the
         responsibility to conduct, supervise, and coordinate audits and investigations of the purchase,
         management, and sale of assets under the TARP. SIGTARP’s goal is to promote economic
         stability by assiduously protecting the interests of those who fund the TARP programs (i.e., the
         American taxpayers).
     12. Treasury Inspector General for Tax Administration (TIGTA) – Conducts and supervises
         audits and investigations of IRS programs and operations. TIGTA also keeps the Secretary and
         the Congress fully and currently informed about problems, abuses, and deficiencies in IRS
         programs and operations.

The scope of our 2013 FISMA evaluation did not include the IRS, which was evaluated by TIGTA. The
TIGTA report is appended to this report and the findings of that report are included in Appendix III, The
Department of the Treasury’s Consolidated Response to DHS’s FISMA 2013 Questions for Inspectors
General.

Department of the Treasury Information Security Management Program

Treasury Office of the Chief Information Officer (OCIO)

The Treasury Chief Information Officer (CIO) is responsible for providing Treasury-wide leadership and
direction for all areas of information and technology management, as well as the oversight of a number of
IT programs. Among these programs is Cyber Security, which has responsibility for the implementation
and management of Treasury-wide IT security programs and practices. Through its mission, the OCIO
Cyber Security Program develops and implements IT security policies and provides policy compliance
oversight for both unclassified and classified systems managed by each of the Treasury’s bureaus. The
OCIO Cyber Security Program’s mission focuses on the following areas:



                                                                                                    Page 4
The Department of the Treasury FISMA Evaluation - 2013

   1. Cyber Security Policy – Manages and coordinates the Departmental cyber security policy for
      sensitive (unclassified) systems throughout the Treasury, assuring these policies and requirements
      are updated to address today’s threat environment, and conducts program performance, progress
      monitoring, and analysis.
   2. Performance Monitoring and Reporting – Implements collection of Federal and Treasury-
      specific security measures and reports those to national authorities and in appropriate summary or
      dashboard form to senior management, IT managers, security officials, and Bureau officials. For
      example, this includes preparation and submission of the annual FISMA report and more frequent
      continuous monitoring information through CyberScope.
   3. Cyber Security Reviews – Conducts technical and program reviews to help strengthen the
      overall cyber security posture of the Treasury and meet their oversight responsibilities.
   4. Enterprise-wide Security – Works with the Bureaus’ and the Treasury’s Government Security
      Operations Center to deploy new Treasury-wide capabilities or integrate those already in place, as
      appropriate, to strengthen the overall protection of the Treasury.
   5. Understanding Security Risks and Opportunities from New Technologies – Analyzes new
      information and security technologies to determine risks (e.g., introduction of new vulnerabilities)
      and opportunities (e.g., new means to provide secure and original functionality for users). OCIO
      seeks to understand these technologies, their associated risks and opportunities, and share and use
      that information to the Treasury’s advantage.
   6. Treasury Computer Security Incident Response Capability (TCSIRC) – Provides incident
      reporting with external reporting entities and conducts performance monitoring and analyses of
      the Computer Security Incident Response Center (CSIRC) within the Treasury and each Bureau’s
      CSIRC.
   7. National Security Systems – Manages and coordinates the Treasury-wide program to address the
      cyber security requirements of national security systems through the development of policy and
      program or technical security performance reviews.
   8. Cyber Security Sub-Council (CSS) of the CIO Council – Operates to serve as the formal means
      for gaining bureau input and advice as new policies are developed, enterprise-wide activities are
      considered, and performance measures are developed and implemented; provides a structured
      means for information-sharing among the bureaus.

The Treasury CIO has tasked the Associate Chief Information Officer for Cyber Security (ACIOCS) with
the responsibility of managing and directing the OCIO’s Cyber Security program, as well as ensuring
compliance with statutes, regulations, policies, and guidance. In this regard, Treasury Directive
Publication (TD P) 85-01 Volume I, Treasury Information Technology Security Program, serves as the
Treasury IT security policy to provide for information security for all information and information
systems that support the mission of the Treasury, including those operated by another Federal agency or
contractor on behalf of the Treasury. In addition, as OMB periodically releases updates/clarifications of
FISMA or as NIST releases updates to publications, the ACIOCS and the Cyber Security Program have
responsibility to interpret and release updated policy for the Treasury. The ACIOCS and the Cyber
Security Program are also responsible for promoting and coordinating a Treasury IT security program, as
well as monitoring and evaluating the status of Treasury’s IT security posture and compliance with
statutes, regulations, policies, and guidance. Lastly, the ACIOCS has the responsibility of managing
Treasury’s IT Critical Infrastructure Protection (CIP) program for Treasury IT assets.

Bureau CIOs

Organizationally, the Treasury has established Treasury CIO and bureau-level CIOs. The CIOs are
responsible for managing the IT security program for their bureau, as well as advising the bureau head on
significant issues related to the bureau IT security program. The CIOs also have the responsibility for


                                                                                                    Page 5
The Department of the Treasury FISMA Evaluation - 2013
overseeing the development of procedures that comply with the Treasury OCIO policy and guidance and
federal statutes, regulations, policy, and guidance. The bureau Chief Information Security Officers
(CISO) are tasked by their respective CIOs to serve as the central point of contact for the bureau’s IT
security program, as well as to develop and oversee the bureau’s IT security program. This includes the
development of policies, procedures, and guidance required to implement and monitor the bureau IT
security program.

Department of the Treasury – Bureau OCIO Collaboration

The Treasury OCIO has established the CIO CSS, which is co-chaired by the ACIOCS and a bureau CIO.
The CSS serves as a mechanism for obtaining bureau-level input and advises on new policies, Treasury
IT security activities, and performance measures. The CSS also provides a means for sharing IT security-
related information among bureaus. Included on the CSS are representatives from the OCIO and bureau
CIO organizations.




                                                                                                  Page 6
The Department of the Treasury FISMA Evaluation - 2013
OVERALL EVALUATION RESULTS

Consistent with applicable FISMA requirements, OMB policy, and NIST guidelines, the Treasury has
established an information security program and related practices for its non-IRS bureaus’ unclassified
systems. This program covers the 11 FISMA program areas: continuous monitoring management,
configuration management, identity and access management, incident and response reporting, risk
management, security training, plan of action and milestones, remote access management, contingency
planning, contractor systems, and security capital planning. 2 However, while the security program has
been implemented across the Treasury for its non-IRS bureaus, we identified needed improvements in 5
of 11 FISMA program areas. We have made 11 recommendations related to these control deficiencies
that, if effectively addressed by management, should strengthen the respective bureaus, offices, and the
Treasury’s information security program. The Findings section of this report presents the detailed
findings and associated recommendations. In a written response to this report, the Treasury CIO agreed
with our findings and recommendations and provided corrective action plans (see Management
Response). Treasury’s planned corrective actions are responsive to the intent of our recommendations.

Additionally, we evaluated all prior-year findings from the fiscal year (FY) 2012 and 2011 FISMA
Performance Audits and noted that management had closed 33 of 40 findings. For 2 of the 40 findings,
we were unable to test the corrective actions by our end of fieldwork date, June 30, 2013. For these
findings, we noted they were closed by Treasury but untested by KPMG and should be evaluated as part
of the FY 2014 independent evaluation. See Appendix II, Status of Prior-Year Findings, for additional
details.




2
  TIGTA will provide a separate report evaluating the IRS’s implementation of the Department of the Treasury’s information
security program.




                                                                                                                       Page 7
The Department of the Treasury FISMA Evaluation - 2013
FINDINGS

1. Logical account management activities were not in place or not consistently performed
   by DO, Mint, and TIGTA

    We identified instances of noncompliance with logical access policies at DO, Mint, and TIGTA. We
    noted the following:

         1. Account management activities were not consistently performed as required by TD P 85-01
            Volume I, Treasury Information Technology Security Program, and bureau-specific policies
            at DO and Mint.
            • For a selected DO system, management was unable to provide us with user access
                agreements for 4 of the 25 selected active administrator accounts assigned to contractor
                personnel. In addition, DO management was unable to secure from the system vendor
                sufficient supporting documentation evidencing the administrators’ account creation
                dates. At the beginning of a new contract, management gave verbal approval to authorize
                the initial contractors. Later, when the on-boarding process was formalized, it did not
                include validation of all contractors who received the initial verbal authorization. Without
                account creation dates, we could not verify that four accounts for which no formal
                authorization was recorded were created before the on-boarding process was finalized. As
                a result, there was insufficient evidence that user account authorization was in place and
                operating effectively. (See Recommendations #1 and #2.)
            • For a selected Mint system, Mint management did not formally document and maintain
                access request forms for 2 of 11 new user accounts. One of these two users was a system
                administrator who did not have any documentation of authorization. We noted the defined
                procedure for approving new users for the selected system lacked the creation and proper
                retention of new user access request forms, per policy. (See Recommendations #3 and #4.)

         2. For a selected TIGTA system, TIGTA management was unable to provide a system-generated
            list showing last login dates and times. In addition, we were unable to obtain evidence of user
            authorization forms for the system. As a result, there was no evidence that user account
            management was in place and operating effectively. It was noted that this was a self-reported
            finding and was listed as a POA&M within the Trusted Agent FISMA (TAF) system with an
            estimated completion date of January 31, 2014.

    These control deficiencies demonstrate that these bureaus did not appropriately implement policies
    for approving and reviewing user access and following NIST’s concept of least privilege. 3

    By failing to retain evidence of all user and administrator accounts approvals, there is an increased
    risk that users could have unauthorized access and/or modify production data on their respective
    systems or the network.

    We recommend that DO management:

         1. For the selected system, implement a process or mechanism to track the administrators’
            account information, including account creation date.

3
  The NIST SP 800-53, Rev. 3, defines least privilege as allowing only authorized accesses for users (and processes acting on
behalf of users) which are necessary to accomplish assigned tasks in accordance with organizational missions and business
functions.




                                                                                                                          Page 8
The Department of the Treasury FISMA Evaluation - 2013

       2. For the selected system, ensure that all users are authorized and maintain evidence of the
          authorization of users.

   We recommend that Mint management:

       3. For the selected system, update the process for approving users to the system to ensure that
          there is appropriate creation and preservation of user access authorization to this system. The
          system security plan (SSP) should also be updated to reflect the new process.

       4. For the selected system, reapprove all existing users under the new process to ensure their
          access is appropriate.

   Based on the planned corrective actions for TIGTA, we are not making additional recommendations.

2. Security incidents were not reported correctly at Fiscal Service and OIG

   Treasury bureaus are required to submit all security incidents to the TCSIRC within specified time
   frames categorized by incident severity. The evaluation identified that Fiscal Service reported
   incidents later than United States Computer Emergency Readiness Team (US-CERT) and Treasury
   recommended guidelines. We also noted that OIG reported Category (CAT) 1 incidents incorrectly as
   CAT 4 incidents. Specifically, we noted the following:

       •   Fiscal Service reported 3 of 15 CAT 1 incidents outside of the US-CERT guidance of one
           hour. Two of the incidents were reported 85 to 111 minutes after initial identification. One of
           the incidents was reported 21 hours after the initial identification. Fiscal Service management
           explained the assessment process for an incident can sometimes exceed the 1-hour timeframe
           required for a CAT 1 incidents, although management is actively working the incident.
           Management plans to revise their current procedure to account for incidents that may require
           additional time for research and analysis. (See Recommendations #5 and #6.)
       •   OIG incorrectly reported 2 of 8 CAT 1 incidents as CAT 4 incidents. Both incidents were
           reported in the required 1-hour deadline for a CAT 1 incident. OIG management was
           categorizing incidents based on an older Treasury policy dated 2008 that did not provide
           examples of the types of incidents that fall into each category. They were not aware of the
           newer Treasury policy dated 2011 that has specific examples of the types of incidents for
           each category. (See Recommendation #7.)

   By not reporting security incidents in a timely manner and under the correct categorization, these
   bureaus increase the risk of unauthorized access, or denial of service attacks, posed to their
   information system while the incident remains unreported. Additionally, by not reporting incidents
   correctly, the bureaus can impair the TCSIRC’s and the US-CERT’s ability to track, analyze, and act
   on aggregated incident data within prescribed timeframes.

   We recommend that Fiscal Service management:

       5. Update Bureau of the Fiscal Service Incident Handling and Response Standard Operating
          Procedures to account for the additional processes performed by the Enterprise Security
          Services – Security Divisions.




                                                                                                    Page 9
The Department of the Treasury FISMA Evaluation - 2013
       6. Ensure that Fiscal Service Security reports all CAT 1 incidents to TCSIRC in compliance
          with their revised standard operating procedures. In addition, provide additional training to
          the Incident Responder team once the incident response standard operating procedures are
          revised.

   We recommend that OIG management:

       7. Ensure that OIG’s CSIRC categorizes incidents based on guidelines set forth in the most
          recent Treasury policy and provides training to staff regarding this new Treasury Policy.


3. FinCEN and Fiscal Service did not follow NIST guidance for SSPs

   NIST and Treasury guidance require that Treasury SSPs remain up-to-date and current with the NIST
   Risk Management Framework and require NIST Special Publication (SP) 800-53, Revision (Rev.) 3,
   security controls. Specifically, we noted that:

   •   FinCEN’s SSP for the selected system did not follow NIST SP 800-53, Rev. 3, guidance on
       required controls for HIGH categorized systems. Specifically, publicly assessable content (AC-
       22), non-repudiation (AU-10), incident response (IR-8), and information system partitioning (SC-
       32) were not addressed in the SSP. FinCEN management did not perform an adequate review of
       the SSP and overlooked the lack of these controls when updating the SSP. (See Recommendations
       #8 and #9.)
   •   Fiscal Service’s SSP for the selected system was last updated in November 2011 and had not
       been reviewed annually as required by the Fiscal Service guidelines. Fiscal Service management
       decided not to update a selected system SSP in FY13 as the system was scheduled for annual
       security assessment with completion projected in mid-December 2013 and the SSP would be
       updated at that time. (See Recommendation #10.)

   Failing to document an up-to-date baseline of security controls may have a negative effect on
   subsequent security activities. Specifically, FinCEN and Fiscal Service may not be able to implement,
   assess, authorize, and monitor the security controls properly for the selected systems; therefore, the
   system security controls may not be sufficient to protect the confidentiality, integrity, and availability
   of sensitive bureau information.

   We recommend that FinCEN management:

       8. Update the system SSP to address and reference the outstanding NIST SP 800-53 Rev. 3
          controls and control enhancements for a HIGH baseline.

       9. Conduct thorough reviews of the system SSP annually to ensure that it includes applicable
          NIST SP 800-53 Rev. 3 controls.

   We recommend that Fiscal Service management:

       10. Ensure that subsequent to the selected system’s security assessment, the SSP should undergo
           annual reviews.




                                                                                                      Page 10
The Department of the Treasury FISMA Evaluation - 2013
4. Contingency planning and testing controls were not fully implemented or operating as
   designed at TIGTA

   The TD P 85-01 requires Treasury bureaus to protect their information systems in the event of a
   disaster. Bureaus must create plans for system recovery and test these plans. TIGTA did not fully
   implement contingency planning (planning and testing) controls as required by TD P 85-01 Volume I,
   NIST SP 800-53, Rev. 3, and NIST SP 800-34 guidance. While these controls do not affect normal,
   daily operations, they are invaluable in quickly recovering the system from a disaster or service
   interruption. Contingency plan documentation for a selected TIGTA system was not finalized within
   the FISMA year. This was a self-reported finding and documented within TIGTA’s POA&M report
   on TAF, with an estimated completion date of December 31, 2013.

   Contingency plans and contingency plan testing, as required by NIST SP 800-53, Rev. 3., and NIST
   SP 800-34, are paramount in assuring that TIGTA information systems can remain operational with
   the least amount of downtime possible in emergencies. Failure to appropriately test recovery
   capabilities could result in the unavailability of critical TIGTA information and information systems
   in the event of a disaster.

   Based on the planned corrective actions for TIGTA, we are not making a recommendation.


5. Evidence of successful completion of annual security awareness training was not
   retained for some users at OIG

   NIST standards and the TD P 85-01 requires that all users complete IT Security Awareness Training
   on an annual basis. Additionally, department guidance requires that individual training records are
   retained for a period of five years. OIG management did not maintain evidence of the successful
   completion of security awareness training by their users. OIG management was unable to provide
   evidence of successful security awareness training completion for 4 of the 25 users selected for
   testing. OIG management reported that users verbally reported completion of the training using the
   Treasury Learning Management System (TLMS); however, the system did not record their successful
   submission. In addition, management does not require users to retain copies of their security
   certificates to show evidence of completion. (See Recommendation #11.)

   Annual security awareness training, as required by TD P 85-01, is essential to verify that users have
   been made aware of system or application rules, their responsibilities, and their expected behavior.
   Without the ability to verify that security awareness training is being completed by every employee,
   management cannot ensure that employees are properly aware of the systems or application rules,
   their responsibilities, and their expected behavior, thereby not adequately protecting IT resources and
   data from being compromised.

   We recommend that OIG management:

       11. Implement processes or mechanisms to ensure that users complete the annual security
           awareness training and that the records of users’ successful completion of this training is
           retained.




                                                                                                   Page 11
The Department of the Treasury FISMA Evaluation - 2013

MANAGEMENT RESPONSE TO THE REPORT

The following is the Treasury CIO’s response, dated October 29, 2013, to the FY 2013 FISMA
Evaluation Report.




                                                                                    Page 12
The Department of the Treasury FISMA Evaluation – 2013

                         Management Response to KPMG Recommendations


KPMG Finding 1: Logical account management activities were not in place or not consistently
performed by DO, Mint, and TIGTA

KPMG Recommendation 1: For DO, we recommend that management: For the selected system,
implement a process or mechanism to track the administrators’ account information, including account
creation date.

        Treasury Response: Treasury agrees with the finding and recommendation. The process for
        granting administrative privileges was instituted in April 2013 to ensure all vendor access has
        been authorized in the form of a background investigation. A collaborative workspace was stood
        up to increase visibility of the vendor account management process and includes artifacts to
        support submission and successful adjudication of a background investigation, which leads to
        account creation and is tracked with a date on the vendor system. Target Completion: April 7,
        2013

        Responsible Official: Departmental Offices, Information Owner (IO) for the selected system.

KPMG Recommendation 2: For DO, we recommend that management: For the selected system, ensure
that all users are authorized and maintain evidence of the authorization of users.

        Treasury Response: Treasury agrees with the finding and recommendation. DO will establish
        annual reviews of user accounts to ensure that all users are authorized. The IO will maintain
        evidence of the authorization of all users. Target Completion: April 7, 2014

        Responsible Official: Departmental Offices, IO for the selected system.

KPMG Recommendation 3: For Mint, we recommend that management: For the selected system,
update the process for approving users to the system to ensure that there is appropriate creation and
preservation of user access authorization to this system. The system security plan (SSP) should also be
updated to reflect the new process.

        Treasury Response: Treasury agrees with the finding and recommendation. Mint has instituted
        development of new Standard Operating Procedures that outline the approval process for
        approving users’ access to the system, management and disposition of user access authorization,
        and periodic review of procedures. System documentation will be updated to reflect new
        processes. Target Completion: January 15, 2014

        Responsible Official: Mint, Chief Information Security Officer

KPMG Recommendation 4: For Mint, we recommend that management: For the selected system,
reapprove all existing users under the new process to ensure their access is appropriate.

        Treasury Response: Treasury agrees with the finding and recommendation. Validation for all
        existing users’ access will occur using the new processes being developed by the Mint. This will
        ensure the creation and preservation of user access, determination that users have appropriate
        access, and completion of updates to system documentation to reflect new processes is addressed
        in a timely manner. Target Completion: January 15, 2014


                                                                                                    Page 15
The Department of the Treasury FISMA Evaluation – 2013

        Responsible Official: Mint, Chief Information Security Officer

KPMG: Based on the planned corrective actions for TIGTA, we are not making additional
recommendations.

KPMG Finding 2: Security incidents were not reported correctly at Fiscal Service and OIG

KPMG Recommendation 5: For Fiscal Service, we recommend that management: Update Bureau of the
Fiscal Service Incident Handling and Response Standard Operating Procedures to account for the
additional processes performed by the Enterprise Security Services – Security Divisions.

        Treasury Response: Treasury agrees with the finding and recommendation. Fiscal Service will
update its Incident Handling and Response Standard Operating Procedures to account for the additional
processes performed by the Enterprise Security Services – Security Divisions. Target Completion: May
30, 2014

        Responsible Official: Fiscal Service, Chief Information Officer

KPMG Recommendation 6: For Fiscal Service, we recommend that management: Ensure that Fiscal
Service Security reports all CAT 1 incidents to TCSIRC [the Treasury Cyber Security Incident Response
Center] in compliance with their revised standard operating procedures. In addition, provide additional
training to the Incident Responder team once the incident response standard operating procedures are
revised.

         Treasury Response: Treasury agrees with the finding and recommendation. Fiscal Service will
ensure that all CAT 1 incidents are reported to TCSIRC in compliance with revised standard operating
procedures. In addition, the Bureau will provide additional training to the Incident Responder team once
the incident response standard operating procedures are revised. Target Completion: May 30, 2014

        Responsible Official: Fiscal Service, Chief Information Officer

KPMG Recommendation 7: For OIG, we recommend that management: Ensure that OIG’s CSIRC
categorizes incidents based on guidelines set forth in the most recent Treasury policy and provides
training to staff regarding this new Treasury Policy.

        Treasury Response: Treasury agrees with the finding and recommendation. OIG has ensured
        that its staff is aware of the current Treasury Policy regarding the proper categorizing of
        incidents. Completed: September 30, 2013

        Responsible Official: OIG, Director of Information Technology

KPMG Finding 3: FinCEN and Fiscal Service did not follow NIST guidance for SSPs

KPMG Recommendation 8: For FinCEN, we recommend that management: Update the system SSP to
address and reference the outstanding NIST SP 800-53 Rev. 3 controls and control enhancements for a
HIGH baseline.

        Treasury Response: Treasury agrees with the finding and recommendation. FinCEN will update
        the SSP document with the missing controls. Target Completion: November 30, 2013



                                                                                                  Page 16
The Department of the Treasury FISMA Evaluation – 2013
        Responsible Official: FinCEN, Chief Information Security Officer

KPMG Recommendation 9: For FinCEN, we recommend that management: Conduct thorough reviews
of the system SSP annually to ensure that it includes applicable NIST SP 800-53 Rev. 3 controls.

        Treasury Response: Treasury agrees with the finding and recommendation. FinCEN will
        review system security plans annually to ensure applicable NIST SP 800-53 Rev. 3 controls are
        included. Target Completion: November 30, 2013

        Responsible Official: FinCEN, Chief Information Security Officer

KPMG Recommendation 10: For Fiscal Service, we recommend that management: Ensure that
subsequent to the selected system’s security assessment, the SSP should undergo annual reviews.

        Treasury Response: Treasury agrees with the finding and recommendation. Fiscal Service will
        ensure that, subsequent to the selected system’s security assessment, the SSP will undergo annual
        reviews. Target Completion: September 30, 2014

        Responsible Official: Fiscal Service, Chief Information Officer

KPMG Finding 4: Contingency planning and testing controls were not fully implemented or
operating as designed at TIGTA

KPMG: Based on the planned corrective actions for TIGTA, we are not making a recommendation.

KPMG Finding 5: Evidence of successful completion of annual security awareness training was not
retained for some users at OIG

KPMG Recommendation 11: For OIG, we recommend that management: Implement processes or
mechanisms to ensure that users complete the annual security awareness training and that the records of
users’ successful completion of this training are retained.

        Treasury Response: Treasury agrees with the finding and recommendation. OIG will ensure
        successful completions of annual security awareness training by requiring that employees provide
        a copy of the completed training certificate to supplement the reports provided by the Treasury
        Learning Management System (TLMS). Target Completion: June 1, 2014

        Responsible Official: OIG, Director of Information Technology




                                                                                                   Page 17
Objective, Scope, and Methodology                                                               Appendix I
APPENDIX I – OBJECTIVE, SCOPE, AND METHODOLOGY
The objectives for this Federal Information Security Management Act (FISMA) evaluation was to
conduct an independent evaluation of the information security program and practices of Department of
the Treasury (Treasury) to assess the effectiveness of such programs and practice for the year ending June
30, 2013 as they relate to non-Internal Revenue Service (IRS) information systems. Specifically, the
objectives of this evaluation are to:
       •   Perform the annual independent FISMA evaluation of the Treasury’s information security
           programs and practices.
       •   Respond to Department of Homeland Security (DHS) FISMA Questions on behalf of the
           Treasury Office of Inspector General (OIG).
       •   Follow up on the status of prior-year FISMA findings.

We conducted our independent evaluation in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

To accomplish our objectives, we evaluated security controls in accordance with applicable legislation,
Presidential directives, and the DHS FY 2013 Inspector General Federal Information Security
Management Act Reporting Metrics, dated November 30, 2012. We reviewed the Treasury information
security program for a program-level perspective and then examined how each bureau complied with the
implementation of these policies and procedures.

We took a phased approach to satisfy the evaluation’s objective as listed below:

       PHASE A: Assessment of Department-Level Compliance

       To gain an enterprise-level understanding, we assessed management, policies, and guidance for the
       overall Treasury-wide information security program per requirements defined in FISMA and DHS FY
       2013 Inspector General Federal Information Security Management Act Reporting Metrics, as well as
       Treasury guidelines developed in response to FISMA. This included program controls applicable to
       information security governance, certification and accreditation, security configuration management,
       incident response and reporting, security training, plan of action and milestones, remote access,
       account and identity management, continuous monitoring, contingency planning, and contractor
       systems.

       PHASE B: Assessment of Bureau-Level Compliance

       To gain a bureau-level understanding, we assessed the implementation of the guidance for the 114
       bureau- and office-wide information security programs according to requirements defined in FISMA
       and DHS FY 2013 Inspector General Federal Information Security Management Act Reporting
       Metrics, as well as Treasury guidelines developed in response to FISMA. This included program
       controls applicable to information security governance, certification and accreditation, security
       configuration management, incident response and reporting, security training, plan of action and
       milestones, remote access, account and identity management, continuous monitoring, contingency
       planning, and contractor systems.

       PHASE C: System Level (Limited)

4
    TIGTA assessed IRS’s bureau-level compliance.




                                                                                                    Page 18
Objective, Scope, and Methodology                                                                              Appendix I

    To gain an understanding of how effectively the bureaus implemented information security controls at
    the system level, we assessed the implementation of a limited selection of security controls from the
    National Institute of Standards and Technology (NIST) Special Publication (SP) 800-53, Revision
    (Rev.) 3, for a subset of Treasury information systems (see Appendix IV).

We also tested a subset of 15 information systems from a total population of 113 non-IRS major
applications and general support systems as of May 16, 2013. 5 We tested the 15 information systems to
assess whether bureaus were effective in implementing the Treasury’s security program and meeting the
Federal Information Processing Standards (FIPS) 200 minimum-security standards to protect information
and information systems. Appendix IV, Approach to Selection of Subset of Systems, provides additional
details regarding our system selection. The subset of systems encompassed systems managed and
operated by 10 of 12 Treasury bureaus, excluding IRS and the Community Development Financial
Institutions (CDFI) Fund. 6

We based our criteria for selecting security controls within each system on the following:

    •      Controls that were shared across a number of information systems, such as common controls,
    •      Controls that were likely to change over time (i.e., volatility) and require human intervention, and
    •      Controls that were identified in prior audits as requiring management’s attention.

Other Considerations

In performing our control evaluations, we interviewed key Treasury Office of the Chief Information
Officer (OCIO) personnel who had significant information security responsibilities, as well as personnel
across the non-IRS bureaus. We also evaluated the Treasury’s and bureaus’ policies, procedures, and
guidelines. Lastly, we evaluated selected security-related documents and records, including certification
and accreditation (C&A) packages, configuration assessment results, and training records.

We performed our fieldwork at the Treasury’s headquarters offices in Washington, D.C., and bureau
locations in Washington, D.C.; Hyattsville, Maryland; and Vienna, Virginia, during the period of April
22, 2013 through July 31, 2013. During our evaluation, we met with Treasury management to discuss our
preliminary conclusions.

Criteria

We focused our FISMA evaluation approach on federal information security guidance developed by
NIST and Office of Management and Budget (OMB). NIST Special Publications provide guidelines that
are considered essential to the development and implementation of agencies’ security programs. 7 The


5
  A subset of information systems refers to our approach of stratifying the population of non-IRS Department of the Treasury
information system and selecting an information system from each Department of the Treasury bureau, excluding IRS and CDFI
Fund, rather than selecting a random sample of information systems that might exclude a Treasury bureau.
6
  Our rotational system selection strategy precludes selecting systems reviewed within the past two years. In FY 2012 and FY
2011, both of CDFI Fund’s only two systems were selected. Therefore, and in accordance with the OIG’s instruction, we
excluded that bureau’s systems from our sample selection in FY 2013.
7
  Note (per FY 2013 Inspector General Federal Information Security Management Act Reporting Metrics): While agencies are
required to follow NIST standards and guidance in accordance with OMB policy, there is flexibility within NIST’s guidance
documents in how agencies apply the guidance. However, NIST Special Publication 800-53 is mandatory because FIPS 200
specifically requires it. Unless specified by additional implementing policy by OMB, guidance documents published by NIST




                                                                                                                    Page 19
Objective, Scope, and Methodology                                                                                 Appendix I
following is a listing of the criteria used in the performance of the fiscal year (FY) 2013 FISMA
evaluation:

NIST FIPS and/or Special Publications

    •    NIST FIPS Publication 199, Standards for Security Categorization of Federal Information and
         Information Systems
    •    NIST FIPS Publication 200, Minimum Security Requirements for Federal Information and
         Information Systems
    •    NIST SP 800-16, Information Technology Security Training Requirements: A Role- and
         Performance- Based Model
    •    NIST SP 800-18, Rev. 1, Guide for Developing Security Plans for Federal Information Systems
    •    NIST SP 800-30, Risk Management Guide for Information Technology Systems
    •    NIST SP 800-34, Rev. 1, Contingency Planning Guide for Federal Information Systems
    •    NIST SP 800-37, Rev. 1, Guide for Applying the Risk Management Framework to Federal
         Information Systems: A Security Life Cycle Approach
    •    NIST SP 800-39, Managing Risk from Information Systems: An Organizational, Mission and
         Information System View
    •    NIST SP 800-53, Rev. 3, Recommended Security Controls for Federal Information Systems and
         Organizations
    •    NIST SP 800-53A, Rev. 1, Guide for Assessing the Security Controls in Federal Information
         Systems and Organizations
    •    NIST SP 800-60, Rev. 1, Guide for Mapping Types of Information and Information Systems to
         Security Categories
    •    NIST SP 800-61, Rev. 1, Computer Security Incident Handling Guide
    •    NIST SP 800-70, Rev. 2, National Checklist Program for IT Products: Guidelines for Checklist
         Users and Developers

OMB Policy Directives

    •    OMB Circular A-130, Management of Federal Information Resources
    •    OMB Memorandum 04-25, FY 2004 Reporting Instructions for the Federal Information Security
         Management Act
    •    OMB Memorandum 05-24, Implementation of Homeland Security Presidential Directive (HSPD)
         12 – Policy for a Common Identification Standard for Federal Employees and Contractors
    •    OMB Memorandum 07-11, Implementation of Commonly Accepted Security Configurations for
         Windows Operating Systems
    •    OMB Memorandum 07-16, Safeguarding Against and Responding to the Breach of Personally
         Identifiable Information
    •    OMB Memorandum 07-18, Ensuring New Acquisitions Include Common Security Configurations

United States Department of Homeland Security

    •    DHS FY 2013 Inspector General Federal Information Security Management Act Reporting
         Metrics


generally allow agencies latitude in their application. Consequently, the application of NIST guidance by agencies can result in
different security solutions that are equally acceptable and compliant with the guidance.




                                                                                                                        Page 20
Objective, Scope, and Methodology                                                         Appendix I
Treasury Policy Directives

   •   Treasury Directive Publication (TD P) 15-71, Department of the Treasury Security Manual
   •   TD P 85-01, Volume I, Treasury Information Technology Security Program




                                                                                                 Page 21
Status of Prior-year Findings                                                                                                                            Appendix II
APPENDIX II – STATUS OF PRIOR-YEAR FINDINGS

In FY 2013, we conducted a FISMA Evaluation versus a FISMA Performance Audit, which were conducted in FY 2012 and FY 2011. As part of
this year’s FISMA Evaluation we followed up on the status of the prior year findings. For the following prior-year performance audit findings, we
evaluated the information systems to determine whether the recommendations have been implemented and whether the findings are closed. We
inquired of Department of the Treasury (Treasury) personnel and inspected evidence to determine the status of the findings. If recommendations
were determined to be implemented, we closed the findings. If recommendations were determined to be only partially implemented or not
implemented at all, we determined the finding to be open. For 2 of the 40 findings, we were unable to test the corrective actions by our end of
fieldwork date, June 30, 2013. For these findings, we noted that they were closed but untested and should be evaluated as part of the FY 2014
independent evaluation.

Prior Year Findings – 2012 Performance Audit


          Finding #                           Prior-Year Condition                               Recommendation(s)                                 Status
Prior Year FY 2012                For the two selected BPD systems, BPD              We recommend that BPD management:                 Implemented/Untested
Finding #1 – Bureau of the        management could not provide sufficient
Public Debt (BPD)                 supporting documentation evidencing the            1   For both selected systems, develop or         FMS and BPD consolidated
                                  users’ last log-on date or time. As a result, we       acquire additional system capability that     into one organization, Fiscal
Logical account management        were unable to test the operating effectiveness        generates user lists with last log-on dates   Service, in October 2012.
activities were not in place or   of the controls over whether inactive users are        so that inactive users are automatically      Fiscal Service reports that it
not consistently performed.       disabled.                                              disabled in a timely manner.                  implemented automated
                                                                                     2   For both selected systems, in the absence     emails that run on a daily
                                                                                         of a long-term system capability solution,    basis to show users’ last log-
                                                                                         perform manual monthly reviews of all         on dates for the two selected
                                                                                         system user accounts and disable or delete    systems. However, Fiscal
                                                                                         accounts that no longer need access.          Service did not complete the
                                                                                                                                       corrective actions until June
                                                                                                                                       2013. Therefore, we were
                                                                                                                                       unable to test the
                                                                                                                                       effectiveness. The finding will
                                                                                                                                       be tested as part of the FY
                                                                                                                                       2014 FISMA evaluation.




                                                                                                                                                               Page 22
Status of Prior-year Findings                                                                                                                         Appendix II

          Finding #                          Prior-Year Condition                              Recommendation(s)                                Status
Prior Year FY 2012                TTB had three active user accounts that should   We recommend that TTB management:                Implemented/Closed
Finding #1 – Bureau of            have had access revoked. One account, a test
Alcohol and Tobacco Tax           account, had last logged in on March 22, 2012    1   Implement an automated mechanism, a          TTB has implemented an
and Trade Bureau (TTB)            and the account was not deactivated after 60         script, or manual review process to ensure   automated script that runs on a
                                  days of inactivity. Another account was for an       inactive accounts are disabled after 60      weekly basis. Accounts that
Logical account management        individual who had separated in July 2011 but        days of inactivity.                          are 60 days inactive are
activities were not in place or   still had an enabled account. Additionally,      2   Ensure that supervisors are aware of their   automatically disabled. In
not consistently performed.       there was a separated individual whose               responsibilities to remove the access of     addition, a notice was sent out
                                  account was still active 20 days after her           separated employees.                         to all supervisory staff and
                                  departure. TTB management explained that it                                                       Contract Officer
                                  did not have an automated mechanism to                                                            Representatives (CORs)
                                  disable inactive accounts due to a technical                                                      detailing their responsibility
                                  limitation; therefore, some user accounts were                                                    for completing the “Delete All
                                  not properly disabled in a timely manner.                                                         Access” process for departing
                                  Additionally, TTB stated that access removal                                                      staff members.
                                  for separated employees was a manual process
                                  by each employee’s supervisor and that human
                                  error occurred.
Prior Year FY 2012                For a selected DO system, DO management          We recommend that DO management include          Implemented/Closed
Finding #1 –Departmental          did not formally document and maintain           the corrective action plans from the selected
Office (DO)                       access request forms for privileged user         system’s continuous monitoring report into a     We noted that a POA&M item
                                  accounts. This was self-discovered during the    POA&M item.                                      was added for the selected
Logical account management        systems continuous monitoring test performed                                                      system, which cross-
activities were not in place or   in June 2012. While there was a documented                                                        referenced the corrective
not consistently performed.       corrective action plan in the continuous                                                          action plans from the
                                  monitoring report, there was not an updated                                                       continuous monitoring report.
                                  POA&M item during the FISMA year.




                                                                                                                                                           Page 23
Status of Prior-year Findings                                                                                                                       Appendix II

          Finding #                           Prior-Year Condition                               Recommendation(s)                            Status
Prior Year FY 2012                OCC did not incorporate all general support        Based on the planned corrective actions for   Implemented/Closed
Finding #1 –Office of             system user accounts of Office of Thrift           OCC, we are not making additional
Comptroller of the Currency       Supervision (OTS), the bureau that OCC             recommendations.                              We noted all old OTS
(OCC)                             partially took over last year, as part of its                                                    accounts have been changed to
                                  access review process. When OTS migrated to                                                      OCC accounts.
Logical account management        OCC, most of the accounts were changed from
activities were not in place or   OTS accounts to OCC accounts. Fourteen
not consistently performed.       users were not transferred over. OCC noticed
                                  this when they did their account review and
                                  created a POA&M to remediate it. This was a
                                  self-reported finding and documented within
                                  OCC’s POA&M report in the Trusted Agent
                                  FISMA (TAF) system and scheduled to be
                                  corrected on July 31, 2012.
Prior Year FY 2012                A selected FinCEN system had a user account        Based on the planned corrective actions for   Implemented/Closed
Finding #1 –Financial             on the database that had unnecessary access        FinCEN, we are not making additional
Crimes Enforcement                permissions. We noted this was due to              recommendations.                              The SSP for the selected
Network (FinCEN)                  database accounts not being sufficiently                                                         system, dated June 2013,
                                  reviewed for access privileges. This was a self-                                                 states that POA&M has been
Logical account management        identified weakness as a result of FinCEN’s                                                      closed. User accounts on the
activities were not in place or   security assessment and authorization and                                                        database are reviewed for
not consistently performed.       scheduled to be corrected on January 14, 2013.                                                   unnecessary access privileges
                                                                                                                                   on a regular basis.




                                                                                                                                                          Page 24
Status of Prior-year Findings                                                                                                                       Appendix II

         Finding #                         Prior-Year Condition                             Recommendation(s)                                 Status
Prior Year FY 2012           BEP did not report 3 of the 15 sampled             We recommend that BEP management:                 Implemented/Closed
Finding #2 - Bureau of       security incidents to TCSIRC within the one-
Engraving & Printing (BEP) hour time period required for a CAT 1                1   Revise the current Incident Response          Policies, procedures and
                             incident. Specifically, one incident was               reporting process and written procedures      training materials have been
Security incidents were not  reported 50 minutes late, one incident was             to have the Help Desk send all incidents to   updated to document and train
reported in a timely manner. reported 65 minutes late, and another incident         the CSIRC group as opposed to the BEP         Help Desk staff on the new
                             was not reported until seven days after                Incident Coordinator.                         process for reporting security
                             identification. BEP Help Desk reports              2   Provide additional training to the Help       incidents. When a ticket is
                             incidents to the designated BEP Incident               Desk team members regarding BEP’s             created for a CAT 1 incident,
                             Coordinator, who then forwards the reported            incident response policies and procedures     the system automatically
                             incident to the BEP CSIRC Management                   to ensure they are consistently               notifies the BEP CSIRC and
                             Team. This two-step process caused delays              implemented. Additional training for Help     the TCSIRC of the incidents.
                             with the submission of the security incident to        Desk personnel should include the same        In addition, every member
                             TCSIRC within BEP’s documented time                    curriculum used by BEP CSIRC                  who was noted in the CSIRC
                             frames. Additionally, not all Help Desk                management team members to allow for          training attendance sheet
                             members had been fully trained to respond to           better understanding of the incident          attended the required BEP
                             security incidents and properly report them to         reporting process.                            CSIRC training.
                             the BEP CSIRC Management Team.
Prior Year FY 2012           BPD did not report one out of three security       We recommend that BPD management:                 Reissued/Closed
Finding #2 - Bureau of the   incidents within the required one-hour time
Public Debt (BPD)            period for a CAT 1 incident (the incident took     1   Ensure that BPD’s CSIRC report all CAT        FMS and BPD consolidated
                             14 hours to report). The delay was caused by           1 incidents to US-CERT within one hour        into one organization, Fiscal
Security incidents were not  BPD’s reliance on United Parcel Service                regardless of any additional procedures       Service, in October 2012. As a
reported in a timely manner. (UPS) to verify the status of a missing                (follow- up, confirmation, or additional      result of this consolidation, we
                             package.                                               feedback from third party) performed by       closed this prior year finding
                                                                                    CSIRC personnel.                              and created a new security
                                BPD followed UPS’s advice and waited until      2   Provide additional training to the BPD’s      incident finding specific to
                                the following day when the next UPS delivery        CSIRC management team regarding               Fiscal Service.
                                was made to ensure that the package was truly       BPD’s incident response policies and
                                lost.                                               procedures to ensure that all incidents are
                                                                                    reported in time regardless of reliance on
                                                                                    third parties to confirm incident




                                                                                                                                                          Page 25
Status of Prior-year Findings                                                                                                                      Appendix II

          Finding #                         Prior-Year Condition                             Recommendation(s)                               Status
Prior Year FY 2012              FinCEN did not report 1 of the 12 incidents to   We recommend that FinCEN management             Implemented/Closed
Finding #2 - Financial          TCSIRC within the required one-hour time         evaluate its current CSIRC capability for
Crimes Enforcement              period for a CAT 1. Specifically, the incident   collecting and submitting incident responses    Updated policies, procedures,
Network (FinCEN)                was reported 69 hours after identification.      and implement backup CSIRC personnel to         and training materials have
                                There was only one person responsible for        ensure that incident response tickets are       been implemented. The
Security incidents were not     FinCEN’s CSIRC reporting, and the incident       handled in a timely fashion.                    updates help to document and
reported in a timely manner.    occurred when this person was out of the                                                         train the help desk staff about
                                office, which delayed reporting until he                                                         the improved way of reporting
                                returned. At the time, there were no backup                                                      security incidents. In addition,
                                CSIRC personnel.                                                                                 all security incident response
                                                                                                                                 reports received for the current
                                                                                                                                 year are compliant and have
                                                                                                                                 been handled in a timely
                                                                                                                                 manner.
Prior Year FY 2012             The two selected information systems from         We recommend that OCC management:               Implemented/Closed
Finding #3 – Office of         OCC did not include all required security
Comptroller of the Currency    controls in areas such as access control, audit   1   For both selected systems, update the SSP   Both selected system’s SSPs
(OCC)                          and accountability, contingency planning,             to address and reference all the NIST SP    have been updated and
                               identification and authentication, maintenance,       800-53, Rev. 3, security controls and       reviewed by management to
System security plans at OCC media protection, system and communications             control enhancements for a Moderate         ensure all the NIST SP 800-
and FMS did not fully          protection, and system and information                baseline.                                   53, Rev. 3, security controls
document all security controls integrity, as specified in NIST SP 800-53, Rev.   2   For both selected systems, ensure           and control enhancements for
from NIST SP 800-53, Rev. 3. 3. We noted that the conditions cited above             management conducts an adequate review      a Moderate baseline have been
                               occurred because OCC management did not               of the SSPs to ensure that it includes      referenced.
                               perform an adequate review of the two                 applicable NIST SP 800-53, Rev. 3, and
                               selected systems’ SSPs and overlooked the             controls.
                               lack of these controls and control
                               enhancements when updating the SSPs.
Prior Year FY 2012             The SSP for a selected FMS system did not         We recommend that FMS management update Implemented/Closed
Finding #3 – Financial         reflect the current and primary source of         the selected system’s SSP to reflect the current
Management Service (FMS) backups for the application. FMS management             and primary source of backups for the            FMS and BPD consolidated
                               stated that the error was due to a management     application.                                     into one organization, Fiscal
One SSP [system security       oversight when updating the SSP.                                                                   Service, in October 2012.
plans] for FMS was not                                                                                                            Fiscal Service has updated the
updated to address weaknesses                                                                                                     system security plan
identified in the security                                                                                                        documentation to reflect the
assessments.                                                                                                                      current primary backup
                                                                                                                                  process accurately.


                                                                                                                                                         Page 26
Status of Prior-year Findings                                                                                                                    Appendix II

          Finding #                        Prior-Year Condition                            Recommendation(s)                               Status
Prior Year FY 2012            FinCEN’s SSP for the selected system did not Based on the planned corrective actions for         Implemented/Closed
Finding #3 – Financial        reflect the results of their latest Security    FinCEN, we are not making a
Crimes Enforcement            Assessment and Authorization, which required recommendation.                                     The SSP has been updated on
Network (FinCEN)              certain controls to be updated to reflect self-                                                  June 2013 and signed off by
                              identified weaknesses. It was noted that this                                                    the System Owner. The SSP
One SSP [system security      was a self-reported finding and was listed as a                                                  reflects the results of their
plans] for FinCEN was not     POA&M with the TAF system with an                                                                latest Security Assessment and
updated to address weaknesses estimated date of completion of January 14,                                                      Authorization.
identified in the security    2013.
assessments.
Prior Year FY 2012            A selected FMS system’s audit capabilities      We recommend that FMS management:                Implemented/Closed
Finding #4 – Financial        and functions did not adhere to the Fiscal
Management Service (FMS) Service Baseline Services Requirements               1 Enhance the selected system audit              FMS and BPD consolidated
                              (BLSR) and NIST SP 800-53, Rev. 3,                  capabilities to capture security-related     into one organization, Fiscal
Audit logs were not           guidance as required for HIGH categorized           events as prescribed by the BLSR and         Service, in October 2012.
sufficiently reviewed by FMS systems. Specifically, it did not have any           NIST SP 800-53 guidance.                     Fiscal Service has updated the
in accordance with NIST and automated capabilities or any supporting          2 Establish a clear oversight process to         system security plan to
Department of the Treasury    processes to log and monitor security-relevant      review the security-related events and       document security related
requirements.                 events. When designing the system, FMS              ensure appropriate follow-up action is       events that need to be
                              management did not adequately identify              taken as prescribed by the BLSR and          monitored and it is consistent
                              requirements and provide capabilities to log        NIST SP 800-53.                              with the BLSR. In addition,
                              and monitor security-related events. In         3 Update the selected system’s system            management has enhanced its
                              addition, management did not establish a            security plan to document security-related   system audit capabilities to
                              robust monitoring process to support the            events that need to be monitored as          capture security events as
                              review and follow-up of selected auditable          prescribed by the BLSR.                      prescribed by the BLSR and
                              events, and management did not document                                                          NIST SP 800-53 and
                              within their system security plan specific                                                       established a clear oversight
                              security-related events that will be monitored                                                   process to review the security-
                              on an ongoing basis.                                                                             related events and follow-up
                                                                                                                               where appropriate.




                                                                                                                                                       Page 27
Status of Prior-year Findings                                                                                                                          Appendix II

         Finding #                          Prior-Year Condition                              Recommendation(s)                                 Status
Prior Year FY 2012              A selected DO system lacked a process to          We recommend that DO management include           Implemented/Closed
Finding #4 – Departmental       review audit records. DO management self-         the corrective action plans from the selected
Offices (DO)                    identified this weakness during a continuous      system’s continuous monitoring report into a      We noted that a POA&M item
                                monitoring assessment in June 2012. While         POA&M item.                                       was added for the selected
Audit logs were not             there was a documented corrective action plan                                                       system, which cross-
sufficiently reviewed by FMS    in the continuous monitoring report, there was                                                      referenced the corrective
and DO in accordance with       not an updated POA&M item during the                                                                action plans from the
NIST and Department of the      FISMA year.                                                                                         continuous monitoring report.
Treasury requirements.
Prior Year FY 2012             We noted that a selected DO system had           We recommend that DO management:                    Partially Implemented/Open
Finding #5-Departmental        multiple identified weaknesses identified in the
Offices (DO)                   June 2012 continuous monitoring test report      1 Update the selected system POA&M with             DO updated the POA&M to
                               that were not documented in the system              the findings and recommendations                 include all the findings and
Plans of Action and            POA&M. DO bureau policy requires that               reported in the system continuous                remediation’s documented in
Milestones (POA&Ms) were       POA&Ms be inputted 30 days after                    monitoring test report.                          the selected system’s
not tracked in accordance with weaknesses are initially identified. The lack of 2 Ensure the continuous monitoring test             Continuous Monitoring Test
NIST and Department of the     these findings being added to the POA&M was         results and recommendations are captured         Report. There was no
Treasury requirements at DO. an oversight by DO management when                    within the selected system POA&M                 continuous monitoring test
                               updating the system POA&M.                          within the 30-day required period.               done this year due to moving
                                                                                                                                    of facilities, so they were not
                                                                                                                                    able to update the POA&M
                                                                                                                                    with any new results.
Prior Year FY 2012              For a selected FMS system, FMS was unable         We recommend that FMS management:                 Implemented/Closed
Finding #6 – Financial          to provide us with supporting documentation
Management Service (FMS)        confirming that vulnerability scans were being    1   Formally document the vulnerability           Formal documentation with
                                performed over the system’s Internet Protocol         scanning and flaw remediation processes       the SOP was created to
Vulnerability scanning and      (IP) addresses. Therefore, we could not               for the Fiscal Services organization and      document the vulnerability
remediation was not             determine if vulnerability scans had been             communicate the processes to affected         scanning and flaw remediation
performed in accordance with    performed, if any vulnerabilities were                field personnel.                              process. Management
Department of the Treasury      identified, and if any corresponding corrective   2   Maintain a complete listing of hosts and IP   maintains a complete listings
requirements.                   actions or POA&M had been implemented                 addresses for the selected FMS system         of hosts and IP addresses and
                                                                                      production environment and document any       retains supporting
                                                                                      changes to this listing, and retain enough    documentation to confirm the
                                                                                      supporting documentation to confirm the       accuracy of completed
                                                                                      accuracy of completed vulnerability scans.    vulnerability scans.




                                                                                                                                                             Page 28
Status of Prior-year Findings                                                                                                                             Appendix II

         Finding #                          Prior-Year Condition                                  Recommendation(s)                                Status
Prior Year FY 2012              For a selected Mint system, the November             We recommend that Mint management follow          Implemented/Closed
Finding #6 – Mint               2011 vulnerability scan contained                    their vulnerability remediation policy for all
                                vulnerabilities with a high risk rating that were    vulnerabilities, including older, noncritical     Mint updated their
Vulnerability scanning and      not remedied prior to the March 2012                 patches, to ensure that vulnerabilities are not   vulnerability remediation
remediation was not             vulnerability scans. The Mint POA&M report           missed in the remediation process.                policy and patched open
performed in accordance with    from TAF, generated in June 2012, did not                                                              vulnerabilities in a timely
Department of the Treasury      reflect the open vulnerabilities. These                                                                manner.
requirements.                   vulnerabilities were not properly remedied due
                                to the Mint’s management decision to
                                remediate noncritical vulnerabilities using a
                                risk-based approach. This risk-based approach
                                did not address all noncritical vulnerabilities in
                                a timely manner and deviated from the Mint’s
                                vulnerability remediation policy, which
                                requires noncritical patches to be applies on a
                                bimonthly basis.
Prior Year FY 2012              For the selected DO system, DO management            We recommend that DO management include           Implemented/Closed
Finding #6 – Departmental       identified multiple high-risk weaknesses in          the corrective action plans from the selected
Offices (DO)                    vulnerability scans and missing scans for            system’s continuous monitoring report into a      We noted that a POA&M item
                                database components during DO’s continuous           POA&M item.                                       was added for the selected
Vulnerability scanning and      monitoring assessment in 2012. While a                                                                 system, which cross-
remediation was not             documented corrective action plan was                                                                  referenced the corrective
performed in accordance with    established in the continuous monitoring                                                               action plans from the
Department of the Treasury      report, the weaknesses were not recorded in                                                            continuous monitoring report.
requirements.                   the POA&M during the FISMA year.




                                                                                                                                                                Page 29
Status of Prior-year Findings                                                                                                                        Appendix II

          Finding #                          Prior-Year Condition                              Recommendation(s)                               Status
Prior Year FY 2012                For both selected BPD systems, BPD               Based upon the planned correction actions for   Implemented/Untested
Finding #6 – Bureau of the        management identified that there were            BPD, we are not making a recommendation.
Public Debt (BPD)                 insufficient procedures over vulnerability                                                       FMS and BPD consolidated
                                  remediation in place. This was a self-reported                                                   into one organization, Fiscal
Vulnerability scanning and        finding and documented within BPD’s                                                              Service, in October 2012. We
remediation was not               POA&M report on TAF. The POA&M item is                                                           noted that Fiscal Service
performed in accordance with      scheduled to be completed on June 30, 2013.                                                      corrected the vulnerability
Department of the Treasury                                                                                                         remediation procedures but
requirements.                                                                                                                      did not complete all corrective
                                                                                                                                   actions until June 2013 and
                                                                                                                                   was unable to test the
                                                                                                                                   effectiveness. The finding will
                                                                                                                                   be tested as part of the FY
                                                                                                                                   2014 FISMA evaluation.
Prior Year FY 2012                For both selected OCC systems, OCC               Based upon the planned correction actions for   Implemented/Closed
Finding #6 – Office of            management identified multiple high-risk         OCC, we are not making a recommendation.
Comptroller of the Currency       weaknesses in vulnerability scans that were                                                      Weaknesses discovered in
(OCC)                             not remediated. This was a self-reported                                                         vulnerability scans were
                                  finding and documented within OCC’s                                                              remediated.
Vulnerability scanning and        POA&M report on TAF. The POA&M item is
remediation was not               scheduled to be completed on August 15,
performed in accordance with      2012.
Department of the Treasury
requirements.
Prior Year FY 2012                Contingency plan documentation for a selected    We recommend that DO management include         Implemented/Closed
Finding #7 – Departmental         DO system was not updated within the FISMA       the corrective action plans from the selected
Offices (DO)                      year. Additionally, contingency plan testing     system’s continuous monitoring report into a    We noted that a POA&M item
                                  was not performed for the system within the      POA&M item.                                     was added for the selected
Contingency planning and          FISMA year. DO management self-identified                                                        system, which cross-
testing controls were not fully   these weaknesses during a continuous                                                             referenced the corrective
implemented or operating as       monitoring assessment in June 2012. While                                                        action plans from the
designed.                         there was a documented corrective action plan                                                    continuous monitoring report.
                                  in the continuous monitoring report, there was
                                  not an updated POA&M item during the
                                  FISMA year.




                                                                                                                                                           Page 30
Status of Prior-year Findings                                                                                                                          Appendix II

          Finding #                           Prior-Year Condition                               Recommendation(s)                               Status
Prior Year FY 2012                For one selected FMS system, FMS                   Based on the planned corrective actions for      Implemented/Closed
Finding #7 – Financial            management identified the contingency plan         FMS, we are not making a recommendation.
Management Service (FMS)          test was not performed within the FISMA                                                             We determined that
                                  year. This was a self-reported finding and                                                          contingency plan tests were
Contingency planning and          documented within FMS’s POA&M report on                                                             performed and completed as
testing controls were not fully   TAF, with an estimated completion date of                                                           of September 2012 for both
implemented or operating as       August 30, 2012.                                                                                    systems.
designed.
                                  For another selected FMS system, FMS
                                  management identified one of three disaster
                                  recovery exercise reconstitution test objectives
                                  was not completed during contingency plan
                                  testing. This was a self-reported finding and
                                  documented within FMS’s POA&M report on
                                  TAF, with an estimated completion date of
                                  August 30, 2012.
Prior Year FY 2012                BPD management could not provide sufficient        We recommend that BPD management                 Implemented/Closed
Finding #8 – Bureau of the        supporting documentation evidencing that the       enhance the logging capability of the system’s
Public Debt (BPD)                 backup jobs were run successfully. As a result,    backup process so management can determine       The audit logging capability
                                  we were unable to test the operating               whether the backups were successfully            of the system has been
Backup controls were not in       effectiveness of the controls over backups. The    completed.                                       enhanced to confirm if a
place or were not operating as    weekly backup logs did not specify whether                                                          backup has been successfully
designed.                         the selected backup jobs were successful or                                                         completed.
                                  had failed. BPD stated that the system was not
                                  configured to include the backup status on the
                                  logs.




                                                                                                                                                            Page 31
Status of Prior-year Findings                                                                                                                      Appendix II

          Finding #                         Prior-Year Condition                              Recommendation(s)                              Status
Prior Year FY 2012             Backups of CDFI Fund data for the selected         We recommend that CDFI Fund management          Implemented/Closed
Finding #8 – Community         system were not being performed on a regular       ensure that the system backups are completed
Development Financial          basis. Upon inspection of all successful           successfully per the defined frequency in the   We noted daily incremental
Institutions (CDFI) Fund       backups between December 2011 and April            SSP, and retain evidence of successful          backups and a weekly full
                               2012, it was noted that backups of data were       completion for one year.                        backup are being performed,
Backup controls were not in    occurring, but the frequency ranged from two                                                       as required by the SSP.
place or were not operating as to seven times a month. This did not comply
designed.                      with the SSP, which indicated that daily
                               incremental backups and a weekly full
                               backups occur. CDFI Fund stated that TTB
                               took over the backup responsibilities in May
                               2012, and, as a result of the upcoming
                               transition, evidence for successful backups
                               was not maintained.
Prior Year FY 2012             A selected DO system lacked sufficient             We recommend that DO management include         Implemented/Closed
Finding #9 – Departmental      mechanisms to track and detect unauthorized        the corrective action plans from the selected
Offices (DO)                   changes. DO management self-identified these       system’s continuous monitoring report into a    We noted that a POA&M item
                               weaknesses during a continuous monitoring          POA&M item.                                     was added for the selected
System configuration settings assessment in June 2012. While there was a                                                          system, which cross-
were not implemented           documented corrective action plan in the                                                           referenced the corrective
properly.                      continuous monitoring report, there was not an                                                     action plans from the
                               updated POA&M item during the FISMA                                                                continuous monitoring report.
                               year.
Prior Year FY 2012             For both selected OCC systems, OCC                 Based upon the planned correction actions for   Implemented/Closed
Finding #9 – Office of         management identified configuration settings       OCC, we are not making a recommendation.
Comptroller of the Currency were not set to the most restrictive settings                                                         Established the definitive
(OCC)                          possible. Both systems had multiple                                                                OCC baseline configurations
                               weaknesses identified in configuration settings                                                    and reviewed all
System configuration settings that did not meet the require threshold for                                                         configurations to ensure
were not implemented           restrictive settings as stated by NIST. This was                                                   compliance to the baseline.
properly.                      a self-reported finding and documented within
                               OCC’s POA&M report on TAF. The POA&M
                               item is scheduled to be completed on
                               December 31, 2013.




                                                                                                                                                        Page 32
Status of Prior-year Findings                                                                                                                         Appendix II

         Finding #                          Prior-Year Condition                               Recommendation(s)                                Status
Prior Year FY 2012              Both selected BPD systems did not have            We recommend that BPD management for              Implemented/Closed
Finding #10 – Bureau of the     baseline configurations formally documented.      both selected systems, develop baseline
Public Debt (BPD)               BPD management was aware of the lack of           configurations (applications build guides) that   Baseline configurations were
                                this documentation for both systems; however,     are consistent with the system’s SSP and          developed that are consistent
System baselines were not       management had planned to rely on system          Federal Enterprise Architecture.                  with both the SSP and Federal
documented properly.            backups to restore system information in case                                                       Enterprise Architecture.
                                of a disaster event.
Prior Year FY 2012              A selected FMS system lacked sufficient           We recommend that FMS management:                 Partially Implemented/Open
Finding#10 – Financial          system baseline documentation. Specifically,
Management Service (FMS)        the baseline documentation did not establish      1   Clarify the distinction between program       We noted that Management
                                operational requirements. Moreover,                   change control and system configuration       developed an Enterprise
System baselines were not       documentation of the following elements did           management within the FMS Entity-Wide         Configuration Management
documented properly.            not exist: mandatory configuration settings for       IT Standards and the selected system          Plan to address
                                the information system components to reflect          Configuration Management Plan by              Recommendations #1 and #3
                                the most restrictive mode; list of authorized         documenting and considering correcting        in March 2013.
                                and unauthorized programs; and mechanisms             gaps in the current process and work flow
                                to verify configuration settings and respond to       to clearly outline work flow, tasks, and      However, Management has
                                unauthorized changes. The selected system             management oversight.                         not updated the Configuration
                                Configuration Management Plan did not             2   Update the selected system Configuration      Management Plan per
                                provide a clear distinction between program           Management Plan to establish operational      Recommendation #2, and is
                                change control and system configuration               requirements and document the following       still open with a new estimate
                                management processes identified in the FMS            elements: mandatory security relevant         of completion in October
                                Entity-Wide IT Standards. The lack of clarity         configuration settings, description of the    2013.
                                and baseline features within the selected             controls to address unauthorized security
                                system Configuration Management Plan was              relevant changes to the configuration of
                                overlooked by FMS management when                     the system, and a list of
                                establishing the plan.                                authorized/unauthorized changes.
                                                                                  3   Document a secure baseline and
                                                                                      mandatory configuration settings for the
                                                                                      information system components in the
                                                                                      selected system Configuration
                                                                                      Management Plan to reflect the most
                                                                                      restrictive mode in support of the security
                                                                                      controls for the system.




                                                                                                                                                           Page 33
Status of Prior-year Findings                                                                                                                   Appendix II

         Finding #                        Prior-Year Condition                             Recommendation(s)                              Status
Prior Year FY 2012             KPMG confirmed that, for a selected FinCEN      Based upon the planned correction actions for   Implemented/Closed
Finding #10 – Financial        system, FinCEN management identified the        FinCEN, we are not making a
Crimes Enforcement             baseline settings were outdated. This was a     recommendation.                                 System baselines have been
Network (FinCEN)               self-reported finding and documented within                                                     identified and documented
                               FinCEN’s POA&M report on TAF. The                                                               properly.
System baselines were not      POA&M item is scheduled to be completed on
documented properly.           January 14, 2013.
Prior Year FY 2012             NIST SP 800-53, Rev. 3, guidance requires       Based on FMS’s planned corrective actions,      Implemented/Closed
Finding#11 – Financial         systems to implement multifactor                we are not making a recommendation.
Management Service (FMS) authentication to local and network access to                                                         Management implemented
                               privileged and nonprivileged accounts.                                                          multifactor authentication to
Multifactor authentication was Multifactor authentication provides an                                                          local and network access for
not implemented.               additional level of security for accounts to                                                    privileged and non-privileged
                               prevent unauthorized access within the IT                                                       accounts.
                               infrastructure. KPMG confirmed that, for the
                               selected FMS system, FMS management
                               identified it did not implement multifactor
                               authentication for any level of access to the
                               system. This was a self-reported finding and
                               documented within FMS’s POA&M report on
                               TAF. The POA&M item is scheduled to be
                               completed on December 31, 2012.




                                                                                                                                                      Page 34
Status of Prior-year Findings                                                                                                                         Appendix II
Prior Year Findings - 2011 Performance Audit


         Finding #                          Prior-Year Condition                              Recommendation(s)                                 Status
Prior Year FY 2011              TIGTA did not fully document account              Based on TIGTA’s planned corrective actions,      Open.
Finding #1 – Treasury           management activities (e.g., review frequency,    we are not making a recommendation.
Inspector General for Tax       inactivity limits, use of shared accounts) in                                                       TIGTA has not finished
Administration (TIGTA)          their SSPs. TIGTA management was unaware                                                            completing its corrective
                                of the lack of documentation until a 2010                                                           action.
Logical account management      security assessment was conducted. In
activities were not fully       response to the security assessment, TIGTA
documented or consistently      established four corrective actions in the
performed.                      system’s POA&M with scheduled completion
                                dates of October 2011, April 2012, July 2012,
                                and December 2012. These security
                                weaknesses continued to exist at the time of
                                fiscal year (FY) 2011 FISMA audit.
Prior Year FY 2011              For a sampled FMS payment management              We recommend that FMS management:                 Open.
Finding #1– Financial           system, 12 user accounts out of 2,950
Management Service (FMS)        inappropriately remained active following 90      1   Continue to monitor the automated             In FY 2012, we were
                                days of inactivity. Additionally, 920 user            solution to disable user accounts after 90    informed that
Logical account management      accounts out of 2,950 did not have a last login       days of inactivity in order to confirm the    Recommendation #1 of the
activities were not fully       date recorded, suggesting these accounts may          automated solution is working in all cases.   FY 2011 finding has been
documented or consistently      never have been used by the account owner.        2   Perform a manual monthly review of all        addressed.
performed.                      We noted a similar finding in a FY 2010               user accounts, and disable or delete (as
                                financial statement audit for the sampled             appropriate) accounts that have not logged    However in FY 2013, we
                                system, but FMS’s corrective actions to               into the system within the prior 90 days      noted that 19 active user
                                implement a fully automated solution to               until the manual, monthly review              accounts have not logged in
                                disable inactive accounts were not fully              demonstrates that the automated solution      greater than 120 days since the
                                effective. FMS attributed the noted conditions        is working for three consecutive months.      list was generated (July 15,
                                to human error during the transition to an                                                          2013 or earlier). Also, of these
                                automated solution. Prior to and after the                                                          active users, five accounts did
                                transition to a fully automated solution, FMS                                                       not have a “last log on date”,
                                did not monitor if the automated solution was                                                       when their account had been
                                working as intended.                                                                                created more than 120 days
                                                                                                                                    before the listing was
                                                                                                                                    generated.




                                                                                                                                                            Page 35
Status of Prior-year Findings                                                                                                                      Appendix II

          Finding #                        Prior-Year Condition                              Recommendation(s)                               Status
Prior Year FY 2011              FMS employees did not immediately report 10      We recommend that FMS management:               Reissued/Closed
Finding #2 – FMS                of 10 confirmed security incidents to FMS’s
                                help desk as required by FMS policy.             1   Revise the current incident reporting       FMS and BPD consolidated
Security incidents were not     Additionally, FMS’s information security             process and associated written procedures   into one organization, Fiscal
reported timely.                group did not report seven of these confirmed        to ensure timely reporting. This could      Service, in October 2012. As a
                                security incidents to TCSIRC within the              include the FMS incident response           result of this consolidation, we
                                required one-hour time period for Category 1         management notifying TCSIRC with            closed this prior year finding
                                incidents (three security incidents were             suspected or confirmed security events      and created a new security
                                reported in one day, two were reported in two        without the need for further FMS            incident finding specific to
                                days, and the remaining three were reported in       Executive management approvals.             Fiscal Service.
                                three days). Rather than report all suspected    2   Provide additional training to FMS
                                and confirmed incidents, FMS failed to notify        security personnel regarding FMS’s
                                TCSIRC until sufficient evidence was gathered        revised incident response policies and
                                and approved by FMS executives as required           procedures to ensure these policies and
                                by FMS policies and procedures. Contributing         procedures are consistently implemented.
                                to the untimely reporting was a lack of after-   3   Consider, if feasible, a Distributed
                                hours coverage by the incident response              Incident Response Team or a Partially
                                personnel. Additionally, we attributed the           Outsourced Team to achieve 24x7x365
                                untimely reporting by FMS employees to a             coverage, per the NIST SP 800-61,
                                lack of sufficient awareness and training.           Computer Security Incident Handling
                                                                                     Guide. Such a strategy could involve
                                                                                     sharing TCSIRC resources with other
                                                                                     Department of the Treasury bureaus.
                                                                                 4   Improve FMS employee awareness to
                                                                                     report both confirmed and suspected
                                                                                     security incidents to the FMS Service
                                                                                     Desk. FMS could create awareness
                                                                                     through periodic reminders via e-mail,
                                                                                     posting security posters in common
                                                                                     employee areas, and through increased
                                                                                     emphasis in annual security and awareness
                                                                                     training.




                                                                                                                                                         Page 36
Status of Prior-year Findings                                                                                                                       Appendix II

          Finding #                         Prior-Year Condition                              Recommendation(s)                               Status
Prior Year FY 2011            NIST and Treasury guidance require that             We recommend that DO management instruct        Implemented/Closed
Finding #3 – DO               Treasury SSPs remain up-to-date and current         the vendor to update the SSPs to include NIST
                              with the NIST Risk Management Framework             SP 800-53, Rev. 3, security controls and        The selected systems have
SSPs did not fully adopt NIST and required NIST SP 800-53 security                associated control enhancements.                updated the SSP to reference
recommended security          controls. We noted that one sampled                                                                 all of the NIST SP 800-53,
controls from NIST Special    information system from DO utilized outdated                                                        Rev. 3, security controls and
Publication (SP) 800-53, Rev. NIST guidance (Rev. 2). Specifically, the SSPs                                                      control enhancements for a
3.                            did not include all required security controls as                                                   High baseline.
                              specified in NIST SP 800-53, Rev. 3,
                              Recommend Security Controls for Federal
                              Information Systems and Organizations, dated
                              August 2009.

                              We noted that the conditions, cited above for
                              DO had various factors including the bureau
                              and vendor’s misunderstanding of contract
                              requirements to maintain compliance with all
                              NIST standards.
Prior Year FY 2011            During the audit period, FMS revised their          We recommend that FMS management ensure         Implemented/Closed
Finding #3 – FMS              SSP template and associated checklist to            that System Owners and ISSOs review and
                              incorporate NIST SP 800-53, Rev. 3, controls.       update SSPs by using the FMS-approved SSP       KPMG noted that the SSP had
SSPs did not fully adopt NIST However, the sampled system’s SSP utilized          template and baseline security requirements,    been updated on June 30,
recommended security          older Rev 2 controls and FMS’s quality control      which incorporate NIST SP 800-53, Rev. 3,       2013 to align with NIST SP
controls from NIST SP 800-    process did not reject this sampled SSP.            security controls.                              800-53, Rev. 3 guidance.
53, Rev. 3.




                                                                                                                                                         Page 37
Status of Prior-year Findings                                                                                                                        Appendix II

          Finding #                           Prior-Year Condition                               Recommendation(s)                             Status
Prior Year FY 2011                For a sampled application, FMS did not             We recommend that FMS management:              Implemented/Closed
Finding #4 – FMS                  document their weekly review of failed login
                                  events during the FISMA audit period. While        1   Identify and document significant audit    Management has implemented
Insufficient audit log reviews.   FMS took actions to address a similar issue in         events that warrant review and further     procedures for reviewing and
                                  a prior-year financial statement audit by              investigation.                             monitoring significant audit
                                  developing audit log review procedures for         2   Update the SSP in order to reflect the     events and audit log reports,
                                  failed login attempts, the limited scope of            results of the risk analysis and clearly   and has updated the SSP to
                                  FMS’s corrective actions did not include a risk        assign ownership and responsibility for    reflect this process.
                                  analysis necessary to identify significant audit       implementing the agreed upon audit log
                                  events worthy of review and subsequent                 review procedures.
                                  investigations, as suggested by NIST SP 800-       3   Ensure that sufficient resources are
                                  53 security control AU-2, Auditable Events.            available to implement audit log review
                                  The audit log review and SSP did not address           procedures.
                                  broader user account activities such as the
                                  creation of new accounts with administrative
                                  capabilities or changes in user account
                                  permissions. In addition, the proposed audit
                                  log review procedures did not include
                                  monitoring changes to specific information
                                  system components such as the database,
                                  sensitive files, or production source code.
                                  Finally, the implemented audit log procedures
                                  did not address potentially suspicious or
                                  unusual transactions that could be performed
                                  in the sampled payment management system.




                                                                                                                                                          Page 38
Status of Prior-year Findings                                                                                                                          Appendix II

         Finding #                          Prior-Year Condition                               Recommendation(s)                                  Status
Prior Year FY 2011              FMS did not record and update security            We recommend that FMS management:                   Implemented/Closed
Finding #6 – FMS                vulnerabilities in a timely manner for three
                                sampled systems. For the sampled systems, we      1   Perform a comprehensive study of FMS’s          Management has developed a
POA&Ms were not tracked         noted that FMS did not review and revise              POA&M management practices to resolve           comprehensive POA&M
and remediated in accordance    expected completion dates for corrective              ongoing auditor-identified POA&M                process and has strengthened
with NIST and Department of     actions, record known high-risk vulnerabilities       challenges. Based on the outcome of this        its existing policies and
the Treasury requirements.      that FMS could not close in 60 days, or               study, FMS should implement corrective          procedures to define roles and
                                correctly report the completion status on             actions designed to ensure complete,            responsibilities.
                                outstanding POA&M items. In both the FY               accurate and timely reporting of POA&M
                                2009 and FY 2010 FISMA audits at FMS, we              items.
                                noted similar POA&M weaknesses for                2   Strengthen FMS’s existing policies and
                                different information systems. FMS took               procedures regarding POA&Ms based on
                                corrective actions to resolve the immediate           the outcome of FMS’s study. The revised
                                instances of noncompliance; however, FMS              FMS policies and procedures should
                                did not resolve bureau wide challenges to             define roles, responsibilities, and expected
                                accurately and sufficiently report all system         communication frequency among key
                                security weaknesses in POA&Ms. A lack of              participants and decision makers.
                                System Owner and ISSO accountability, as          3   Promote increased involvement by FMS
                                indicated in their Appointment Letter, and            executives and Authorizing Officials in
                                communication issues between ISSO and                 the POA&M management process. Such
                                FMS’s information security group contributed          actions could include establishing
                                to the conditions described above.                    performance metrics and associated
                                                                                      incentives and/or disincentives for FMS
                                                                                      management personnel to accurately
                                                                                      report and resolve noted security
                                                                                      weaknesses in their portfolio of
                                                                                      information systems.
                                                                                  4   Promote personal accountability for
                                                                                      executing information security
                                                                                      responsibilities, such as those listed in the
                                                                                      ISSO and System Owner Appointment
                                                                                      Letters, by incorporating those
                                                                                      responsibilities and expected outcomes in
                                                                                      the employees’ Annual Performance Plan.




                                                                                                                                                             Page 39
Status of Prior-year Findings                                                                                                                           Appendix II

          Finding #                        Prior-Year Condition                               Recommendation(s)                                   Status
Prior Year FY 2011            FMS did not complete a failover, and               We recommend that FMS management                     Implemented/Closed
Finding #8 – FMS              contingency plan test for two Critical             expedite the planned disaster recovery testing
                              Infrastructure Protection (CIP) payment            at the alternate recovery site to confirm that (a)   FMS and BPD consolidated
Contingency planning and      management systems residing at FMS in              FMS can resume mission critical functions            into one organization, Fiscal
testing and backup controls   accordance with FMS security standards and         within the stated two-hour recovery window           Service, in October 2012.
were not fully implemented or NIST SP 800-53 Rev. 3 requirements. During         and (b) the applications can operate                 Fiscal Service management
operating as designed.        the nine-month period from October 1, 2010         successfully and communicate with other              completed contingency plan
                              through June 30, 2011, these two CIP systems       essential applications and third parties.            testing for both systems in
                              processed 911 million payments totaling $1.93                                                           September 2012.
                              trillion. These two systems process
                              approximately all Social Security
                              Administration payments, Medicare and
                              Medicaid payments, IRS tax refunds, Veteran
                              Affairs payments, and other United States
                              government vendor payments. However, these
                              two systems had only undergone a tabletop
                              disaster recovery test during FY 2010 and FY
                              2011 and had not completed a full disaster
                              recovery test at the recovery site in the prior
                              two years. Per FMS and NIST SP 800-34
                              requirements, disaster recovery simulation
                              exercises, such as tabletop exercises, are
                              sufficient for “Moderate” systems but not
                              “High” impact systems. FMS categorized
                              these CIP systems as having a “High” FIPS
                              199 impact rating with a two-hour recovery
                              time objective. This designation requires FMS
                              to perform a failover, recovery and
                              reconstitution (including communications with
                              applications and third parties) of critical
                              systems at an alternate site on an annual basis.
                              FMS delayed failover contingency plan tests in
                              FY 2011 and FY 2010 due to operational
                              priorities to relocate and consolidate data
                              centers.




                                                                                                                                                              Page 40
Status of Prior-year Findings                                                                                                                   Appendix II

         Finding #                        Prior-Year Condition                             Recommendation(s)                              Status
Prior Year FY 2011            The selected TIGTA system lacked sufficient      Based on TIGTA’s planned corrective actions,   Open.
Finding #8 – TIGTA            documentation regarding the system’s             we are not making a recommendation.
                              contingency plan and contingency plan testing.                                                  TIGTA has not finished
Contingency planning and      Specifically, the documentation did not                                                         completing its corrective
testing and backup controls   include certain key software used. TIGTA                                                        action.
were not fully implemented or management identified these weaknesses
operating as designed.        during a 2010 security assessment and
                              established two POA&M items with scheduled
                              completion dates of January 2012 and June
                              2012.
Prior Year FY 2011            TIGTA was aware of the requirement to            Based on TIGTA’s planned corrective actions,   Open.
Finding #10 – TIGTA           comply with NIST SP 800-37, Rev 1, Guide         we are not making a recommendation.
                              for Applying the Risk Management Framework                                                      TIGTA has not finished
Risk management program       to Federal Information Systems, by February                                                     completing its corrective
was not consistent with NIST 2011, but had not updated the risk                                                               action.
SP 800-37, Rev. 1.            management program at the time of the FY
                              2011 FISMA audit. As NIST SP 800-37 Rev 1
                              was issued in February 2010, OMB requires
                              federal agencies to adopt this NIST guidance
                              within one year of issuance. We did not
                              determine a cause as the weakness was self-
                              reported. TIGTA created a POA&M item to
                              address identified gaps and developed
                              corrective actions to become compliant, with a
                              completion date of August 2014. An
                              insufficient risk management program can lead
                              to ineffective risk-based decision-making and
                              untimely implementation of system-level
                              controls.
Prior Year FY 2011            The sampled TIGTA system lacked formal           Based on TIGTA’s planned corrective actions,   Open.
Finding #12 – TIGTA           documentation in certain areas of                we are not making a recommendation.
                              configuration management. TIGTA                                                                 TIGTA has not finished
Improper system               management identified this weakness in a                                                        completing its corrective
configuration programs.       2010 security assessment and created POA&M                                                      action.
                              remediation actions to address the weaknesses
                              identified with a completion date of May 2012.




                                                                                                                                                     Page 41
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2013 Questions for Inspectors General                                 Appendix III

APPENDIX III – THE DEPARTMENT OF THE TREASURY’S CONSOLIDATED RESPONSE TO DHS’s FISMA 2013
QUESTIONS FOR INSPECTORS GENERAL

The information included in Appendix III represents the Department of the Treasury’s (Treasury) consolidated responses to Department of
Homeland Security’s (DHS) FISMA 2013 questions for Inspectors General. KPMG prepared responses to DHS questions based on an assessment
of 15 information systems across 12 Treasury components, excluding the IRS. KPMG determined the overall status of each DHS question based
on the magnitude of the aggregated findings under each category with OIG acceptance. TIGTA performed audit procedures over the IRS
information systems and provided their answers to the Treasury OIG and KPMG for consolidation. These answers are included within the table
below. The information provided by TIGTA has not been subjected to KPMG audit procedures and, accordingly, we express no opinion on it.

1: Continuous Monitoring

Status of Continuous Monitoring         1.1. Has the Organization established an enterprise-wide continuous monitoring program that assesses the security
Program [check one: Yes or No]          state of information systems that is consistent with FISMA requirements, OMB policy, and applicable NIST
                                  Yes   guidelines? If yes, besides the improvement opportunities that may have been identified by the OIG, does the
                                        program include the following attributes:
                                  Yes        1.1.1. Documented policies and procedures for continuous monitoring (NIST 800-53: CA-7).
                                  Yes        1.1.2. Documented strategy and plans for continuous monitoring (NIST 800-37 Rev 1, Appendix G).
                                             1.1.3. Ongoing assessments of security controls (system-specific, hybrid, and common) that have been
                                  Yes
                                             performed based on the approved continuous monitoring plans (NIST 800-53, NIST 800-53A).
                                             1.1.4. Provides authorizing officials and other key system officials with security status reports covering
                                             updates to security plans and security assessment reports, as well as a common and consistent POA&M
                                  Yes
                                             program that is updated with the frequency defined in the strategy and/or plans (NIST 800-53, NIST 800-
                                             53A).
                                        1.2. Please provide any additional information on the effectiveness of the organization’s Continuous Monitoring
                                        Management Program that was not noted in the questions above.

                                        Comments – TIGTA: The IRS’s annual assessments of system security controls are predominantly manual. The
                                        IRS’s strategy for automating continuous monitoring includes the implementation of a tool called Archer, which
                                        will be a central repository and analysis engine for assessment results, such as automated vulnerability scans.
                                        Archer is in its initial development phases

2: Configuration Management

Status of Configuration                 2.1 Has the Organization established a security configuration management program that is consistent with FISMA
Management Program [check one:    No        requirements, OMB policy, and applicable NIST guidelines? If yes, besides the improvement opportunities
Yes or No]                                  that may have been identified by the OIG, does the program include the following attributes:
                                  Yes       2.1.1. Documented policies and procedures for configuration management.



                                                                                                                                                   Page 42
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2013 Questions for Inspectors General                                 Appendix III

Status of Configuration                2.1 Has the Organization established a security configuration management program that is consistent with FISMA
Management Program [check one:   No        requirements, OMB policy, and applicable NIST guidelines? If yes, besides the improvement opportunities
Yes or No]                                 that may have been identified by the OIG, does the program include the following attributes:
                                           2.1.2. Defined standard baseline configurations.

                                 No        Comments – Treasury OIG: Fiscal Service did not document all required aspects of baseline configuration
                                           for a selected system. TIGTA did not identify standard baseline configurations. (See Prior Year FY 2012
                                           Finding #10 and Prior Year FY 2011 Finding #12)
                                           2.1.3. Assessments of compliance with baseline configurations.

                                           Comments – TIGTA: The IRS has not deployed automated mechanisms to centrally manage, apply, and
                                           verify baseline configuration settings and produce FISMA compliance reports using the NIST-defined
                                 No
                                           Security Content Automation Protocol (SCAP) format. During FY 2013, the IRS was in the process of
                                           implementing the Security Compliance Posture Monitoring and Reporting application, which is intended to
                                           provide the ability to assess compliance with baseline security controls in a SCAP-compliant format on an
                                           enterprisewide level; however, its implementation has been delayed
                                           2.1.4. Process for timely (as specified in organization policy or standards) remediation of scan result
                                           deviations.
                                 No
                                           Comments – TIGTA: The IRS has not yet fully implemented vulnerability scanning tools and processes on
                                           all systems to ensure timely remediation of scan result deviations. Also, the IRS processes to share
                                           vulnerability information to system owners and administrators are still under development.
                                           2.1.5. For Windows-based components, USGCB secure configuration settings are fully implemented, and any
                                 Yes
                                           deviations from USGCB baseline settings fully documented.
                                           2.1.6. Documented proposed or actual changes to the hardware and software configurations.

                                           Comments – TIGTA: The IRS has not yet fully implemented configuration and change management controls
                                 No        to ensure that proposed or actual changes to hardware and software configurations are documented and
                                           controlled. During FY 2013, the Enterprise Services organization was in the process of implementing the
                                           Enterprise Configuration Management System to provide an enterprise solution for configuration and change
                                           management.
                                           2.1.7. Process for the timely and secure installation of software patches.

                                           Comments – TIGTA: The IRS has not yet fully implemented a process to ensure timely and secure
                                           installation of software patches. During FY 2013, the IRS was in the process of evaluating tools that have the
                                 No
                                           capability to perform automated patch management activities across a multitude of technologies and feed
                                           results to a centralized location. During the FY 2013 FISMA evaluation period, TIGTA and the Government
                                           Accountability Office (GAO) identified critical patches that were missing or installed in an untimely manner
                                           on IRS computers.



                                                                                                                                                   Page 43
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2013 Questions for Inspectors General                                 Appendix III

Status of Configuration                2.1 Has the Organization established a security configuration management program that is consistent with FISMA
Management Program [check one:   No        requirements, OMB policy, and applicable NIST guidelines? If yes, besides the improvement opportunities
Yes or No]                                 that may have been identified by the OIG, does the program include the following attributes:
                                           2.1.8. Software assessing (scanning) capabilities are fully implemented (NIST 800-53: RA-5, SI-2).
                                 No
                                           Comments – TIGTA: Monthly vulnerability scans are not being performed on all systems.
                                           2.1.9. Configuration-related vulnerabilities, including scan findings, have been remediated in a timely manner,
                                           as specified in organization policy or standards (NIST 800-53: CM-4, CM-6, RA-5, SI-2).

                                           Comments – TIGTA: The IRS has not yet fully implemented vulnerability scanning tools and processes on
                                 No
                                           all systems to ensure timely remediation of scan result deviations. Also, IRS processes to share vulnerability
                                           information with system owners and administrators are still under development. During the FY 2013 FISMA
                                           evaluation period, TIGTA and the GAO identified servers that were not consistently configured to have strong
                                           controls.
                                           2.1.10. Patch management process is fully developed, as specified in organization policy or standards (NIST
                                           800-53: CM-3, SI-2).

                                            Comments – TIGTA: The IRS has not yet implemented a process to ensure timely and secure installation of
                                 No
                                            software patches. During FY 2013, the IRS was in the process of evaluating tools that have the capability to
                                            perform automated patch management activities across a multitude of technologies and feed results to a
                                            centralized location. During FY 2013, TIGTA and the GAO identified critical patches that were missing or
                                            installed in an untimely manner on IRS computers.
                                       2.2. Please provide any additional information on the effectiveness of the organization’s Configuration
                                       Management Program that was not noted in the questions above.

3: Identity and Access Management

Status of Identity and Access          3.1 Has the organization established an identity and access management program that is consistent with FISMA
Management Program [check one:             requirements, OMB policy, and applicable NIST guidelines and identifies users and network devices? If yes,
                                 No
Yes or No]                                 besides the improvement opportunities that have been identified by the OIG, does the program include the
                                           following attributes:
                                           3.1.1. Documented policies and procedures for account and identity management (NIST 800-53: AC-1)
                                 No
                                           Comments – Treasury OIG: TIGTA did not formally document account management activities for a selected
                                           system (See Prior Year FY 2011 Finding #1)




                                                                                                                                                   Page 44
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2013 Questions for Inspectors General                                   Appendix III

Status of Identity and Access          3.1 Has the organization established an identity and access management program that is consistent with FISMA
Management Program [check one:             requirements, OMB policy, and applicable NIST guidelines and identifies users and network devices? If yes,
                                 No
Yes or No]                                 besides the improvement opportunities that have been identified by the OIG, does the program include the
                                           following attributes:
                                           3.1.2. Identifies all users, including Federal employees, contractors, and others who access organization
                                           systems.
                                 No
                                           Comments – TIGTA: The IRS has not fully implemented unique user identification that complies with
                                           Homeland Security Presidential Directive-12 (HSPD-12). In addition, five of our 10 sampled systems did not
                                           have the NIST SP 800-53 AC-2 security control in place.
                                           3.1.3. Identifies when special access requirements (e.g., multi-factor authentication) are necessary.
                                 No
                                           Comments – TIGTA: The IRS did not fully implement multifactor authentication in compliance with HSPD-
                                           12.
                                           3.1.4. If multi-factor authentication is in use, it is linked to the organization's PIV program where appropriate
                                           (NIST SP 800-53, IA-2).
                                 No
                                           Comments – TIGTA: The IRS has not fully deployed multifactor authentication via the use of an HSPD-12
                                           PIV card for all users for network and local access to nonprivileged or privileged accounts as required by
                                           HSPD-12.
                                           3.1.5. Organization has planned for implementation of PIV for logical access in accordance with government
                                           policies (HSPD 12, FIPS 201, OMB M-05-24, OMB M-07-06, OMB M-08-01, OMB M-11-11).
                                 No
                                           Comments – TIGTA: Although the IRS is working to achieve its goal of
                                           85 percent mandatory PIV use by the end of Calendar Year 2013, considerable challenges still exist for
                                           achieving full compliance due to its legacy environment.
                                           3.1.6. Organization has adequately planned for implementation of PIV for physical access in accordance with
                                 Yes
                                           government policies (HSPD 12, FIPS 201, OMB M-05-24, OMB M-07-06, OMB M-08-01, OMB M-11-11).
                                           3.1.7. Ensures that the users are granted access based on needs and separation-of-duties principles.

                                           Comments – Treasury OIG: DO, Mint and TIGTA were unable to provide evidence that users access was
                                 No        granted access based on needs. (See Finding #1)

                                           Comments – TIGTA: During FY 2013, TIGTA and the GAO identified users that had been granted more
                                           access than needed and instances where the separation-of-duties principle was not enforced.




                                                                                                                                                     Page 45
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2013 Questions for Inspectors General                                 Appendix III

Status of Identity and Access           3.1 Has the organization established an identity and access management program that is consistent with FISMA
Management Program [check one:              requirements, OMB policy, and applicable NIST guidelines and identifies users and network devices? If yes,
                                  No
Yes or No]                                  besides the improvement opportunities that have been identified by the OIG, does the program include the
                                            following attributes:
                                            3.1.8. Identifies devices with IP addresses that are attached to the network and distinguishes these devices
                                            from users (For example: IP phones, faxes, and printers are examples of devices attached to the network that
                                            are distinguishable from desktops, laptops, or servers that have user accounts).
                                  No
                                            Comments – TIGTA: During FY 2013, the IRS was still in the process of implementing tools to achieve
                                            automated asset discovery and asset management.
                                            3.1.9. Identifies all user and non-user accounts. (Refers to user accounts that are on a system. Data user
                                  Yes       accounts are created to pull generic information from a database or a guest/anonymous account for generic
                                            login purposes. They are not associated with a single user or a specific group of users).
                                            3.1.10. Ensures that accounts are terminated or deactivated once access is no longer required.

                                            Comments – Treasury OIG: Fiscal Service did not deactivate accounts after 90 days of inactivity (See Prior
                                  No        Year FY 2011 Finding #1)

                                             Comments – TIGTA: During FY 2013, TIGTA and the GAO identified systems that do not have controls in
                                             place to ensure that accounts are terminated or deactivated once access is no longer needed.
                                  Yes        3.1.11. Identifies and controls use of shared accounts.
                                        3.2. Please provide any additional information on the effectiveness of the organization’s Identity and Access
                                        Management Program that was not noted in the questions above.

                                        Comments – Treasury OIG: DO was unable to provide documentation evidencing administrators account
                                        creation dates. TIGTA was unable to provide documentation evidencing users and their last login dates and times.
                                        Fiscal Service was unable to provide documentation evidencing the users’ last log-on dare or time. (See Finding #1
                                        and Prior Year FY 2012 Finding #1)

4: Incident Response and Reporting

Status of Incident Response and         4.1 Has the Organization established an incident response and reporting program that is consistent with FISMA
Reporting Program [check one:     Yes       requirements, OMB policy, and applicable NIST guidelines? If yes, besides the improvement opportunities
Yes or No]                                  that may have been identified by the OIG, does the program include the following attributes:
                                            4.1.1. Documented policies and procedures for detecting, responding to, and reporting incidents (NIST 800-
                                  Yes
                                            53: IR-1).
                                            4.1.2. Comprehensive analysis, validation, and documentation of incidents.
                                  No
                                            Comments – Treasury OIG: OIG incorrectly documented reported incidents in error. (See Finding #2)



                                                                                                                                                   Page 46
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2013 Questions for Inspectors General                                    Appendix III

Status of Incident Response and         4.1 Has the Organization established an incident response and reporting program that is consistent with FISMA
Reporting Program [check one:     Yes       requirements, OMB policy, and applicable NIST guidelines? If yes, besides the improvement opportunities
Yes or No]                                  that may have been identified by the OIG, does the program include the following attributes:
                                            4.1.3. When applicable, reports to US-CERT within established timeframes (NIST 800-53, 800-61; and OMB
                                            M-07-16, M-06-19).

                                            Comments – Treasury OIG: Fiscal Service did not report incidents within required time frames. (See
                                  No
                                            Finding #2)

                                             Comments – TIGTA: The IRS did not always report incidents involving Personally Identifiable Information
                                             to the US-CERT within established time frames due to resource constraints.
                                  Yes        4.1.4. When applicable, reports to law enforcement within established time frames (SP 800-61).
                                             4.1.5. Responds to and resolves incidents in a timely manner, as specified in organization policy or standards,
                                  Yes
                                             to minimize further damage (NIST 800-53, 800-61; and OMB M-07-16, M-06-19).
                                  Yes        4.1.6. Is capable of tracking and managing risks in a virtual/cloud environment, if applicable.
                                  Yes        4.1.7. Is capable of correlating incidents.
                                             4.1.8. Has sufficient incident monitoring and detection coverage in accordance with government policies
                                  Yes
                                             (NIST 800-53, 800-61; and OMB M-07-16, M-06-19).
                                        4.2. Please provide any additional information on the effectiveness of the organization’s Incident Management
                                        Program that was not noted in the questions above.




5: Risk Management

Status of Risk Management               5.1 Has the Organization established a risk management program that is consistent with FISMA requirements,
Program [check one: Yes or No]    Yes       OMB policy, and applicable NIST guidelines? If yes, besides the improvement opportunities that may have
                                            been identified by the OIG, does the program include the following attributes:
                                            5.1.1. Documented policies and procedures for risk management, including descriptions of the roles and
                                  Yes
                                            responsibilities of participants in this process.
                                            5.1.2. Addresses risk from an organization perspective with the development of a comprehensive governance
                                            structure and organization-wide risk management strategy as described in NIST 800-37, Revision 1.
                                  No
                                            Comments – Treasury OIG: TIGTA did not update risk management program with NIST 800-37, Rev.1
                                            guidance (See Prior Year FY 2011 Finding #10)




                                                                                                                                                      Page 47
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2013 Questions for Inspectors General                                     Appendix III

Status of Risk Management              5.1 Has the Organization established a risk management program that is consistent with FISMA requirements,
Program [check one: Yes or No]   Yes       OMB policy, and applicable NIST guidelines? If yes, besides the improvement opportunities that may have
                                           been identified by the OIG, does the program include the following attributes:
                                           5.1.3. Addresses risk from a mission and business process perspective and is guided by the risk decisions from
                                           an organizational perspective, as described in NIST 800-37, Rev. 1.
                                 No
                                           Comments – Treasury OIG: TIGTA did not update risk management program with NIST 800-37, Rev.1
                                           guidance (See Prior Year FY 2011 Finding #10)
                                           5.1.4. Addresses risk from an information system perspective and is guided by the risk decisions from an
                                 Yes
                                           organizational perspective and the mission and business perspective, as described in NIST 800-37, Rev. 1.
                                 Yes       5.1.5. Has an up-to-date system inventory.
                                 Yes       5.1.6. Categorizes information systems in accordance with government policies.
                                 Yes       5.1.7. Selects an appropriately tailored set of baseline security controls.
                                           5.1.8. Implements the tailored set of baseline security controls and describes how the controls are employed
                                           within the information system and its environment of operation.
                                 No
                                           Comments – Treasury OIG: FinCEN did not adequately document the implementation of controls as
                                           required by NIST and Treasury guidance (See Finding #3)
                                           5.1.9. Assesses the security controls using appropriate assessment procedures to determine the extent to which
                                 Yes       the controls are implemented correctly, operating as intended, and producing the desired outcome with respect
                                           to meeting the security requirements for the system.
                                           5.1.10. Authorizes information system operation based on a determination of the risk to organizational
                                 Yes       operations and assets, individuals, other organizations, and the Nation resulting from the operation of the
                                           information system and the decision that this risk is acceptable.
                                           5.1.11. Ensures information security controls are monitored on an ongoing basis including assessing control
                                           effectiveness, documenting changes to the system or its environment of operation, conducting security impact
                                           analyses of the associated changes, and reporting the security state of the system to designated organizational
                                 No
                                           officials.

                                           Comments – Treasury OIG: Fiscal Service did not review the SSP annually. (See Finding #3)
                                           5.1.12. Information-system-specific risks (tactical), mission/business-specific risks and organizational-level
                                 Yes
                                           (strategic) risks are communicated to appropriate levels of the organization.
                                 Yes       5.1.13. Senior Officials are briefed on threat activity on a regular basis by appropriate personnel. (e.g., CISO).
                                           5.1.14. Prescribes the active involvement of information system owners and common control providers, chief
                                 Yes       information officers, senior information security officers, authorizing officials, and other roles as applicable in
                                           the ongoing management of information-system-related security risks.
                                           5.1.15. Security authorization package contains system security plan, security assessment report, and POA&M
                                 Yes
                                           in accordance with government policies (NIST SP 800-18, SP 800-37).




                                                                                                                                                       Page 48
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2013 Questions for Inspectors General                                    Appendix III

Status of Risk Management              5.1 Has the Organization established a risk management program that is consistent with FISMA requirements,
Program [check one: Yes or No]   Yes        OMB policy, and applicable NIST guidelines? If yes, besides the improvement opportunities that may have
                                            been identified by the OIG, does the program include the following attributes:
                                            5.1.16. Security authorization package contains accreditation boundaries, defined in accordance with
                                 Yes
                                            government policies, for organization information systems.
                                       5.2. Please provide any additional information on the effectiveness of the organization’s Risk Management
                                       Program that was not noted in the questions above.

6: Security Training

Status of Security Training            6.1 Has the organization established a security training program that is consistent with FISMA requirements,
Program [check one: Yes or No]   Yes       OMB policy, and applicable NIST guidelines? If yes, besides the improvement opportunities that may have
                                           been identified by the OIG, does the program include the following attributes:
                                 Yes       6.1.1. Documented policies and procedures for security awareness training (NIST SP 800-53: AT-1).
                                           6.1.2. Documented policies and procedures for specialized training for users with significant information
                                 Yes
                                           security responsibilities.
                                           6.1.3. Security training content based on the organization and roles, as specified in organization policy or
                                 Yes
                                           standards.
                                           6.1.4. Identification and tracking of the status of security awareness training for all personnel (including
                                           employees, contractors, and other organization users) with access privileges that require security awareness
                                           training.
                                 No
                                           Comments – Treasury OIG: OIG was unable to provide evidence of successful completion of security
                                           awareness training. (See Finding #5)
                                           6.1.5. Identification and tracking of the status of specialized training for all personnel (including employees,
                                           contractors, and other organization users) with significant information security responsibilities that require
                                           specialized training.
                                 No
                                            Comments – TIGTA: The IRS did not track completions of specialized information technology security
                                            training by contractors during the FY 2013 FISMA evaluation period.
                                            6.1.6. Training material for security awareness training contains appropriate content for the organization
                                 Yes
                                            (NIST SP 800-50, 800-53).
                                       6.2. Please provide any additional information on the effectiveness of the organization’s Security Training Program
                                       that was not noted in the questions above.




                                                                                                                                                      Page 49
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2013 Questions for Inspectors General                                   Appendix III

7: POA&M

Status of POA&M Program [check         7.1 Has the Organization established a POA&M program that is consistent with FISMA requirements, OMB
one: Yes or No]                             policy, and applicable NIST guidelines and tracks and monitors known information security weaknesses? If
                                 Yes
                                            yes, besides the improvement opportunities that may have been identified by the OIG, does the program
                                            include the following attributes:
                                            7.1.1. Documented policies and procedures for managing IT security weaknesses discovered during security
                                 Yes
                                            control assessments and that require remediation.
                                 Yes        7.1.2. Tracks, prioritizes, and remediates weaknesses.
                                 Yes        7.1.3. Ensures remediation plans are effective for correcting weaknesses.
                                 Yes        7.1.4. Establishes and adheres to milestone remediation dates.
                                 Yes        7.1.5. Ensures resources and ownership are provided for correcting weaknesses.
                                            7.1.6. POA&Ms include security weaknesses discovered during assessments of security controls and that
                                 Yes        require remediation (do not need to include security weakness due to a risk-based decision to not implement a
                                            security control) (OMB M-04-25).
                                            7.1.7. Costs associated with remediating weaknesses are identified (NIST SP 800-53, Rev. 3, Control PM-3;
                                 Yes
                                            OMB M-04-25).
                                            7.1.8. Programs officials report progress on remediation to CIO on a regular basis, at least quarterly, and the
                                 Yes        CIO centrally tracks, maintains, and independently reviews/validates the POA&M activities at least quarterly
                                            (NIST SP 800-53, Rev. 3, Control CA-5 and OMB M-04-25).
                                       7.2. Please provide any additional information on the effectiveness of the organization’s POA&M Program that
                                       was not noted in the questions above.

8: Remote Access Management

Status of Remote Access                8.1 Has the organization established a remote access program that is consistent with FISMA requirements, OMB
Management Program [check one:   Yes       policy, and applicable NIST guidelines? If yes, besides the improvement opportunities that may have been
Yes or No]                                 identified by the OIG, does the program include the following attributes:
                                           8.1.1. Documented policies and procedures for authorizing, monitoring, and controlling all methods of remote
                                 Yes
                                           access (NIST 800-53: AC-1, AC-17).
                                 Yes       8.1.2. Protects against unauthorized connections or subversion of authorized connections.
                                           8.1.3. Users are uniquely identified and authenticated for all access (NIST 800-46, Section 4.2, Section 5.1).

                                 No        Comments – TIGTA: System administrators of the virtual private network infrastructure and server
                                           components do not use NIST-compliant multifactor authentication for local or network access to privileged
                                           accounts. In addition, virtual private network server components do not comply with password requirements.
                                 Yes       8.1.4. Telecommuting policy is fully developed (NIST 800-46, Section 5.1).
                                 Yes       8.1.5. If applicable, multifactor authentication is required for remote access (NIST 800-46, Section 2.2, 3.3).



                                                                                                                                                    Page 50
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2013 Questions for Inspectors General                               Appendix III

Status of Remote Access                8.1 Has the organization established a remote access program that is consistent with FISMA requirements, OMB
Management Program [check one:   Yes        policy, and applicable NIST guidelines? If yes, besides the improvement opportunities that may have been
Yes or No]                                  identified by the OIG, does the program include the following attributes:
                                            8.1.6. Authentication mechanisms meet NIST SP 800-63 guidance on remote electronic authentication,
                                 Yes
                                            including strength mechanisms.
                                 Yes        8.1.7. Defines and implements encryption requirements for information transmitted across public networks.
                                            8.1.8. Remote access sessions, in accordance with OMB M-07-16, are timed-out after 30 minutes of inactivity
                                 Yes
                                            after which re-authentication is required.
                                            8.1.9. Lost or stolen devices are disabled and appropriately reported (NIST 800-46, Section 4.3, US-CERT
                                 Yes
                                            Incident Reporting Guidelines).
                                            8.1.10. Remote access rules of behavior are adequate in accordance with government policies (NIST 800-53:
                                 Yes
                                            PL-4).
                                            8.1.11. Remote-access user agreements are adequate in accordance with government policies (NIST SP 800-
                                 Yes
                                            46, Section 5.1; NIST SP 800-53, PS-6).
                                       8.2. Please provide any additional information on the effectiveness of the organization’s Remote Access
                                       Management that was not noted in the questions above.
                                 Yes   8.3. Does the organization have a policy to detect and remove unauthorized (rogue) connections?

9: Contingency Planning

Status of Contingency Planning         9.1 Has the organization established an enterprise-wide business continuity/disaster recovery program that is
Program [check one: Yes or No]             consistent with FISMA requirements, OMB policy, and applicable NIST guidelines? If yes, besides the
                                 Yes
                                           improvement opportunities that may have been identified by the OIG, does the program include the following
                                           attributes:
                                           9.1.1. Documented business continuity and disaster recovery policy providing the authority and guidance
                                 Yes
                                           necessary to reduce the impact of a disruptive event or disaster (NIST 800-53: CP-1).
                                           9.1.2. The organization has incorporated the results of its system’s Business Impact Analysis (BIA) into the
                                 Yes       analysis and strategy development efforts for the organization’s Continuity of Operations Plan (COOP),
                                           Business Continuity Plan (BCP), and Disaster Recovery Plan (DRP) (NIST SP 800-34).
                                           9.1.3. Development and documentation of division, component, and IT infrastructure recovery strategies,
                                           plans, and procedures (NIST SP 800-34).
                                 No
                                           Comments – Treasury OIG: TIGTA did not fully implement contingency planning and testing controls for
                                           one system and one prior year system did not have a new operating system integrated into its contingency
                                           plan. (See Finding #4 and Prior Year FY 2011 Finding #8)
                                           9.1.4. Testing of system-specific contingency plans.
                                 No
                                           Comments – Treasury OIG: TIGTA did not perform contingency plan testing for the selected system. (See
                                           Finding #4)


                                                                                                                                                 Page 51
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2013 Questions for Inspectors General                                    Appendix III

Status of Contingency Planning         9.1 Has the organization established an enterprise-wide business continuity/disaster recovery program that is
Program [check one: Yes or No]             consistent with FISMA requirements, OMB policy, and applicable NIST guidelines? If yes, besides the
                                 Yes
                                           improvement opportunities that may have been identified by the OIG, does the program include the following
                                           attributes:
                                           9.1.5. The documented BCP and DRP are in place and can be implemented when necessary (FCD1, NIST SP
                                 Yes
                                           800-34).
                                           9.1.6. Development of test, training, and exercise (TT&E) programs (FCD1, NIST SP 800-34, NIST SP 800-
                                           53).
                                 No
                                           Comments – Treasury OIG: TIGTA did not fully implement contingency planning and testing controls. (See
                                           Finding #4 and Prior Year FY 2011 Finding #8)
                                           9.1.7. Testing or exercising of BCP and DRP to determine effectiveness and to maintain current plans.
                                 No
                                           Comments – Treasury OIG: TIGTA did not perform contingency plan testing for the selected system. (See
                                           Finding #4)
                                           9.1.8. After-action report that addresses issues identified during contingency/disaster recovery exercises
                                           (FCD1, NIST SP 800-34).
                                 No
                                            Comments – Treasury OIG: TIGTA did not perform contingency plan testing for the selected system. (See
                                            Finding #4)
                                 Yes        9.1.9. Systems that have alternate processing sites (FCD1, NIST SP 800-34, NIST SP 800-53).
                                            9.1.10. Alternate processing sites are not subject to the same risks as primary sites (FCD1, NIST SP 800-34,
                                 Yes
                                            NIST SP 800-53).
                                            9.1.11. Backups of information that are performed in a timely manner (FCD1, NIST SP 800-34, NIST SP 800-
                                 Yes
                                            53).
                                 Yes        9.1.12. Contingency planning that considers supply chain threats.
                                       9.2. Please provide any additional information on the effectiveness of the organization’s Contingency Planning
                                       Program that was not noted in the questions above.

10: Contractor Systems

Status of Contractor Systems           10.1 Has the Organization established a program to oversee systems operated on its behalf by contractors or other
[check one: Yes or No]                     entities, including organization systems and services residing in the cloud external to the organization? If yes,
                                 Yes
                                           besides the improvement opportunities that may have been identified by the OIG, does the program includes
                                           the following attributes:
                                           10.1.1. Documented policies and procedures for information security oversight of systems operated on the
                                 Yes       organization's behalf by contractors or other entities, including organization systems and services residing in
                                           public cloud.




                                                                                                                                                      Page 52
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2013 Questions for Inspectors General                                         Appendix III

Status of Contractor Systems                10.1 Has the Organization established a program to oversee systems operated on its behalf by contractors or other
[check one: Yes or No]                          entities, including organization systems and services residing in the cloud external to the organization? If yes,
                                      Yes
                                                besides the improvement opportunities that may have been identified by the OIG, does the program includes
                                                the following attributes:
                                                10.1.2. The organization obtains sufficient assurance that security controls of such systems and services are
                                      Yes       effectively implemented and comply with Federal and organization guidelines (NIST SP 800-53: CA-2).
                                                10.1.3. A complete inventory of systems operated on the organization's behalf by contractors or other entities,
                                      Yes
                                                including organization systems and services residing in public cloud.
                                                10.1.4. The inventory identifies interfaces between these systems and organization-operated systems (NIST
                                      Yes
                                                800-53: PM-5).
                                                10.1.5. The Organization requires appropriate agreements (e.g., MOUs, Interconnection Security Agreements,
                                      Yes
                                                contracts, etc.) for interfaces between these systems and those that it owns and operates.
                                      Yes       10.1.6. The inventory of contractor systems is updated at least annually.
                                                10.1.7. Systems that are owned or operated by contractors or entities, including organization systems and
                                      Yes       services residing in public cloud, are compliant with FISMA requirements, OMB policy, and applicable NIST
                                                guidelines.
                                            10.2. Please provide any additional information on the effectiveness of the organization’s Contractor Systems
                                            Program that was not noted in the questions above.

11: Security Capital Planning

Status of Security Capital Planning         11.1 Has the Organization established a security capital planning and investment program for information security?
[check one: Yes or No]                Yes        If yes, besides the improvement opportunities that may have been identified by the OIG, does the program
                                                 include the following attributes:
                                                 11. 1.1. Documented policies and procedures to address information security in the capital planning and
                                      Yes
                                                 investment control (CPIC) process.
                                      Yes        11.1.2. Includes information security requirements as part of the capital planning and investment process.
                                                 11.1.3. Establishes a discrete line item for information security in organizational programming and
                                      Yes
                                                 documentation (NIST 800-53: SA-2).
                                                 11.1.4. Employs a business case/Exhibit 300/Exhibit 53 to record the information security resources required
                                      Yes
                                                 (NIST 800-53: PM-3).
                                      Yes        11.1.5. Ensures that information security resources are available for expenditure as planned.
                                            11.2. Please provide any additional information on the effectiveness of the organization’s Security Capital
                                            Planning Program that was not noted in the questions above.




                                                                                                                                                           Page 53
Approach to Selection of Subset of Systems                                                   Appendix IV

APPENDIX IV – APPROACH TO SELECTION OF SUBSET OF SYSTEMS

In fiscal year (FY) 2013, a risk-based approach was employed to determine the subset of United States
Department of the Treasury (Treasury) information systems for the FISMA Evaluation. The universe for
this subset only included major business applications and general support systems with a security
classification of “moderate” or “high.” We used the system inventory contained within the Trusted Agent
FISMA system (TAF) as the population for this subset.

Based on historical trends in the Treasury systems inventory and past reviews, we used a subset size of 25
from the total population of Treasury major applications and general support systems with a security
classification of “Moderate” or “High.” Based on their lower risk, we elected not to incorporate any
systems with a FIPS 199 System Impact Level of “Low” into the population of applications to be
selected. We then applied the weighting of IRS systems to non-IRS bureau systems to the total subset size
in order to determine the IRS and non-IRS bureau subset sizes.

To select the subset, we stratified the full population of Treasury major applications and general support
systems by bureau and by FIPS 199 system impact level. We used a risk-based approach to select systems
out of each stratum. We considered the following factors to select system:

   •   Total number of systems per bureau.
   •   Systems at smaller bureaus not historically included in FISMA audits or evaluations.
   •   Number of systems at each bureau with a FIPS system impact level of “High.”
   •   Location of the system.
   •   Whether the system is going to be decommissioned prior to December 31, 2013.
   •   Whether the system was identified in a previous FISMA audits or evaluations within the past two
       years.

Lastly, the total number of financial systems selected in the subset would not exceed the percentage of
systems they represent in the Treasury inventory of information systems. We defined financial systems as
those information systems that have been designated as “Financial” or “Mixed Financial” systems in the
Treasury’s TAF System.

Based on our analysis of the Treasury inventory of information systems as of May 16, 2013, we noted a
total of 188 major applications and general support systems with a security classification of moderate or
high are contained within the Treasury-wide inventory. The following table provides our analysis of the
composition of the Treasury’s inventory of major applications and general support systems.

                      Total            IRS Financial IRS Non-            Non-IRS           Non-IRS
                                       Systems       Financial           Financial         Non-
                                                     Systems             Systems           Financial
                                                                                           Systems
Major
                           135                2               50                36               47
Applications
General Support
                              53              0               23                2                28
Systems
Total                      188                2               72                38               75




                                                                                                   Page 54
Approach to Selection of Subset of Systems                                                                       Appendix IV

From the analysis above, it was determined that IRS systems make up 40% of the total population of
Major Applications and General Support systems and Non-IRS systems make up 60%. When the IRS to
Non-IRS weighting is applied to subset size of 25 from the total population, the resulting sizes for the IRS
and Non-IRS subsets are 10 and 15, respectively.

We determined that Major Applications account for 73% of the population of the Non-IRS population and
General Support Systems account for 27%. We further determined that systems designated as “Financial”
and “Mixed Financial” in TAF account for 34% of all Non-IRS Major Applications and General Support
Systems. Lastly, we determined that 33% of the Non-IRS Major Applications and General Support
Systems are assigned a FIPS 199 System Impact Level of “High,” while 67% are assigned a FIPS 199
System Impact Level of “Moderate.”

     Total Selected                                                                                 15
     Total Major Applications                                                                       11
     Total General Support Systems                                                                   4
     Total Systems with a FIPS 199 System Impact Level of “High”                                     3
     Total Systems with a FIPS 199 System Impact Level of “Moderate”                                12
     Total Systems with a FIPS 199 System Impact Level of “Low”                                      0
     Total Systems Designated as Financial                                                           3
        (Note: During the evaluation, one of the high financial systems was determined to be retiring in early
        FY 2014, so a moderate non-financial system was used to replace it.)

We further stratified the number of information systems by each bureau to determine the total percentage
of information systems at each Non-IRS bureau, based on the total population of the 113 Non-IRS
information systems. We used this information as a baseline to determine the total number of systems to
select at each bureau or office:

         Bureau               Total Systems              Percentage of             Total Number of
                                                         Total Non-IRS             Non-IRS Systems
                                                          Population                 to be Select
     BEP                               6                       5%                          1
     Fiscal Service                   52                      44%                          5
     CDFI Fund                         2                       2%                   0 (See Note 1)
     DO                               24                      20%                          3
     FinCEN                            7                       6%                          1
     Mint                              9                       8%                          1
     OCC                               7                       6%                          1
     OIG                               1                       1%                   1 (See Note 2)
     TIGTA                             2                       2%                   1 (See Note 2)
     TTB                               3                       3%                   1 (See Note 2)
     Total                           113                     100%                         15
        (Note 1: Per instructions from the OIG, we did not sample any systems from CDFI Fund, because their
        systems had been selected in the past 2 years.)
        (Note 2: Using this methodology initially did not yield a system being selected at these agencies.
        However, using our risk-based methodology, we elected to select one system for each of these agencies
        and decrease the number of systems for Fiscal Service.)




                                                                                                                      Page 55
Glossary of Terms                                                            Appendix V

APPENDIX V – GLOSSARY OF TERMS
         Acronym                                       Definition
AC                  Access Control
The Act             Title III of the E-government Act of 2002
ACIOCS              Associate Chief Information Officer for Cyber Security
AU                  Audit and Accountability
BCP                 Business Continuity Planning
BEP                 Bureau of Engraving and Printing
BIA                 Business Impact Analysis
BLSR                Fiscal Service Baseline Services Requirements
Bureaus             Bureaus/Offices
BPD                 Bureau of the Public Debt
CA                  Security Assessment and Authorization
CAT                 Category
C&A                 Certification and Accreditation
CDFI Fund           Community Development Financial Institutions Fund
CIO                 Chief Information Officer
CIP                 Critical Infrastructure Protection
CISO                Chief Information Security Officer
CM                  Configuration Management
COOP                Continuity of Operations Plan
COR                 Contracting Officer Representative
CP                  Contingency Planning
CPIC                Capital Planning and Investment Control
CSIRC               Computer Security Incident Response Center
CSS                 Cyber Security Sub-Council
DHS                 Department of Homeland Security
DO                  Departmental Offices
DRP                 Disaster Recovery Plan
FCD                 Federal Continuity Directive
FinCEN              Financial Crimes Enforcement Network
FIPS                Federal Information Processing Standards
Fiscal Service      Bureau of the Fiscal Service
FISMA               Federal Information Security Management Act
FMS                 Financial Management Service
FY                  Fiscal Year
HSPD                Homeland Security Presidential Directive
IA                  Identification and Authentication
IG                  Inspector General
IP                  Internet Protocol
IR                  Incident Response & Reporting


                                                                                 Page 56
Glossary of Terms                                                                 Appendix V

        Acronym                                      Definition
IRS                 Internal Revenue Service
ISSO                Information System Security Officer
IT                  Information Technology
KPMG                KPMG LLP
Mint                United States Mint
MOU                 Memorandum of Understanding
NIST                National Institute of Standards and Technology
OCC                 Office of the Comptroller of the Currency
OCIO                Office of the Chief Information Officer
OIG                 Office of Inspector General
OMB                 Office of Management and Budget
OTS                 Office of Thrift Supervision
PIV                 Personal Identity Verification
PL                  Planning
POA&M               Plan of Action and Milestones
PL                  Planning
PM                  Program Management
PS                  Personnel Security
RA                  Risk Assessment
Rev.                Revision
SC                  System & Communications Protection
SI                  System and Information Integrity
SIGTARP             Special Inspector General for the Troubled Asset Relief Program
SA                  System and Services Acquisition
SOP                 Standard Operating Procedure
SP                  Special Publication
SSP                 System Security Plan
TAF                 Trusted Agent FISMA
TARP                Troubled Asset Relief Program
TCSIRC              Treasury Computer Security Incident Response Capability
TD P                Treasury Directive Publication
TIGTA               Treasury Inspector General for Tax Administration
TLMS                Treasury Learning Management System
Treasury            The Department of the Treasury
TTB                 Alcohol and Tobacco Tax and Trade Bureau
TT&E                Test, Training & Exercise
UPS                 United Parcel Service
US-CERT             United States Computer Emergency Readiness Team
USGCB               United Stated Government Configuration Baseline




                                                                                      Page 57
    THIS PAGE INTENTIONALLY LEFT BLANK
 
            ATTACHMENT 2

    Treasury Inspector General for Tax
Administration – Federal Information Security
  Management Act Report for Fiscal Year
   2013, (Reference No. 2013-20-128),
            September 27, 2013
    THIS PAGE INTENTIONALLY LEFT BLANK
 
TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Treasury Inspector General for Tax
                Administration – Federal Information Security
                Management Act Report for Fiscal Year 2013



                                        September 27, 2013

                              Reference Number: 2013-20-128




  This report remains the property of the Treasury Inspector General for Tax Administration (TIGTA) and
   may not be disseminated beyond the Internal Revenue Service without the permission of the TIGTA.
       This report may contain confidential return information protected from disclosure pursuant to
   I.R.C. § 6103(a). Such information may be disclosed only to Department of the Treasury employees
     who have a need to know this information in connection with their official tax administration duties.

 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


TREASURY INSPECTOR GENERAL FOR                            •   Continuous Monitoring Management.
TAX ADMINISTRATION – FEDERAL                              •   Risk Management.
INFORMATION SECURITY
MANAGEMENT ACT REPORT FOR                                 •   Plan of Action and Milestones.
FISCAL YEAR 2013                                          •   Contingency Planning.
                                                          •   Contractor Systems.
Highlights                                                •   Security Capital Planning.
                                                      Three of the nine security program areas, while
Issued on September 27, 2013
                                                      generally compliant, were not fully effective due
                                                      to one program attribute that was missing or not
Highlights of Reference Number: 2013-20-128
                                                      working as intended:
to the Department of the Treasury, Office of the
Inspector General, Assistant Inspector General            •   Incident Response and Reporting.
for Audit.
                                                          •   Security Training.
IMPACT ON TAXPAYERS                                       •   Remote Access Management.
The IRS collects and maintains a significant          However, two of the 11 security program areas
amount of personal and financial information on       were not compliant with FISMA requirements
each taxpayer. The Federal Information                and did not meet the level of performance
Security Management Act (FISMA) was enacted           specified by the DHS’s FY 2013 Inspector
to strengthen the security of information and         General Federal Information Security
systems within Federal Government agencies.           Management Act Reporting Metrics due to the
Until the IRS takes steps to fully implement all      majority of the DHS-specified attributes being
11 security program areas covered by FISMA,           missing or not working as intended:
taxpayer data will remain vulnerable to
inappropriate use, modification, or disclosure,           •   Configuration Management.
possibly without being detected.
                                                          •   Identity and Access Management.
WHY TIGTA DID THE AUDIT
                                                      WHAT TIGTA RECOMMENDED
As part of the FISMA legislation, the Offices of
                                                      TIGTA does not include recommendations as
Inspectors General are required to perform an
                                                      part of its annual FISMA evaluation and reports
annual independent evaluation of each Federal
                                                      only on the level of performance achieved by the
agency’s information security programs and
                                                      IRS using the guidelines issued by the DHS for
practices. This report presents the results of
                                                      the applicable FISMA evaluation period.
TIGTA’s FISMA evaluation of the IRS’s
information security program for Fiscal
Year (FY) 2013.
WHAT TIGTA FOUND
Based on our FY 2013 FISMA evaluation,
TIGTA found that nine of 11 security program
areas were generally compliant with the FISMA
requirements. Six of the nine security program
areas included all of the program attributes
specified by the Department of Homeland
Security’s (DHS) FY 2013 Inspector General
Federal Information Security Management Act
Reporting Metrics:
                                                   DEPARTMENT OF THE TREASURY

                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 September 27, 2013


 MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL FOR AUDIT
                OFFICE OF THE INSPECTOR GENERAL
                DEPARTMENT OF THE TREASURY


 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Treasury Inspector General for Tax
                                 Administration – Federal Information Security Management Act Report
                                 for Fiscal Year 2013 (Audit # 201320001)

 This report presents the results of the Treasury Inspector General for Tax Administration’s
 Federal Information Security Management Act 1 evaluation of the Internal Revenue Service for
 Fiscal Year 2013. The Act requires the agency’s Inspector General to perform an annual
 independent evaluation of the agency’s information security program and practices to determine
 the effectiveness of such program and practices.
 The report was forwarded to the Treasury Inspector General for consolidation into a report issued
 to the Department of the Treasury Chief Information Officer. Copies of this report are also being
 sent to the IRS managers affected by the report results.
 If you have any questions, please contact me or Alan R. Duncan, Assistant Inspector General for
 Audit (Security and Information Technology Services).




 1
     Title III of the E-Government Act of 2002, Pub. L. No. 107-374, 116 Stat. 2899.
                      Treasury Inspector General for Tax Administration – Federal
                   Information Security Management Act Report for Fiscal Year 2013




                                            Table of Contents

Background .......................................................................................................... Page 1
Results of Review ............................................................................................... Page 3
          The Internal Revenue Service’s Information Security Program
          Generally Complies With the Federal Information Security
          Management Act, but Improvements Are Needed ....................................... Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 18
          Appendix II – Major Contributors to This Report ........................................ Page 20
          Appendix III – Report Distribution List ....................................................... Page 21
          Appendix IV – Treasury Inspector General for Tax Administration
          Information Technology Security-Related Reports Issued During the
          Fiscal Year 2013 Evaluation Period ............................................................. Page 22
             Treasury Inspector General for Tax Administration – Federal
          Information Security Management Act Report for Fiscal Year 2013




                            Abbreviations

CIO                  Chief Information Officer
CM                   Continuous Monitoring
DHS                  Department of Homeland Security
FCD1                 Federal Continuity Directive 1
FIPS                 Federal Information Processing Standards
FISMA                Federal Information Security Management Act
FY                   Fiscal Year
GAO                  Government Accountability Office
HSPD-12              Homeland Security Presidential Directive-12
IP                   Internet Protocol
IRS                  Internal Revenue Service
IT                   Information Technology
NIST                 National Institute of Standards and Technology
OIG                  Office of the Inspector General
OMB                  Office of Management and Budget
PIV                  Personal Identity Verification
POA&M                Plan of Action and Milestones
SCAP                 Security Content Automation Protocol
SP                   Special Publication
TIGTA                Treasury Inspector General for Tax Administration
US-CERT              United States Computer Emergency Response Team
USGCB                United States Government Configuration Baseline
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2013




                                           Background

The Internal Revenue Service (IRS) collects and maintains a significant amount of personal and
financial information on each taxpayer. As custodians of taxpayer information, the IRS has an
obligation to protect the confidentiality of this sensitive information against unauthorized access
or loss. Otherwise, taxpayers could be exposed to invasion of privacy and financial loss or
damage from identity theft or other financial crimes.
The Federal Information Security Management Act (FISMA) of 2002 1 was enacted to strengthen
the security of information and systems within Federal agencies. Under the FISMA, agency
heads are responsible for providing information security protections commensurate with the risk
and magnitude of harm resulting from the unauthorized access, use, disclosure, disruption,
modification, or destruction of information and information systems. Agency heads are also
responsible for complying with the requirements of the FISMA, related Office of Management
and Budget (OMB) policies, and National Institute of Standards and Technology (NIST)
procedures, standards, and guidelines.
One of the provisions of the FISMA requires the agencies to have an annual independent
evaluation of their information security programs and practices performed by the agency
Inspector General or an independent external auditor as determined by the Inspector General. 2
The OMB uses the information from the agencies and independent evaluations in its FISMA
oversight capacity to assess agency-specific and Federal Governmentwide security performance,
develop its annual security report to Congress, and assist in improving and maintaining adequate
agency security performance.
In July 2010, the OMB delegated its responsibility to the Department of Homeland Security
(DHS) for the collection of annual FISMA responses. 3 The DHS issued the FY 2013 Inspector
General Federal Information Security Management Act Reporting Metrics on
November 30, 2012, for Fiscal Year 4 (FY) 2013 FISMA responses. These reporting metrics
specified the security program areas for the Inspectors General to evaluate and listed specific
attributes that each security program area should include. Detailed information on our audit


1
  Title III of the E-Government Act of 2002, Pub. L. No. 107-374, 116 Stat. 2899.
2
  The FISMA evaluation period for the Department of the Treasury is July 1, 2012, through June 30, 2013.
3
  In OMB Memorandum M-10-28, Clarifying Cybersecurity Responsibilities and Activities of the Executive Office of
the President and the Department of Homeland Security, OMB delegated the responsibility for various operational
aspects of Federal cyber security to the DHS, including overseeing the agencies’ compliance with the FISMA and
developing analyses for the OMB to assist in the development of the FISMA annual report.
4
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
                                                                                                        Page 1
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2013



objective, scope, and methodology is presented in Appendix I. Major contributors to this report
are listed in Appendix II.




                                                                                         Page 2
                       Treasury Inspector General for Tax Administration – Federal
                    Information Security Management Act Report for Fiscal Year 2013




                                         Results of Review

The Internal Revenue Service’s Information Security Program
Generally Complies With the Federal Information Security
Management Act, but Improvements Are Needed
The DHS FY 2013 Inspector General Federal Information Security Management Act Reporting
Metrics that were issued on November 30, 2012, specified 11 information security program areas
and a total of 98 attributes within the 11 areas for the Inspectors General to evaluate and
determine compliance with FISMA requirements. The 11 information security program areas
are as follows:
       •   Continuous Monitoring Management.
       •   Configuration Management.
       •   Identity and Access Management.
       •   Incident Response and Reporting.
       •   Risk Management.
       •   Security Training.
       •   Plan of Action and Milestones (POA&M).
       •   Remote Access Management.
       •   Contingency Planning.
       •   Contractor Systems.
       •   Security Capital Planning.
To complete our FISMA evaluation, we reviewed a representative judgmental sample 5 of
10 major IRS information systems. For each system in the sample, we assessed the risk
management process, the annual testing of controls for continuous monitoring, the testing of
information technology contingency plans, and the plan of action and milestones process. In
addition, we evaluated the IRS’s enterprise-level processes over configuration management,
identity and access management, incident response and reporting, security training, remote
access management, contractor systems, and security capital planning. During the FY 2013
FISMA evaluation period, we also completed seven audits, as shown in Appendix IV, which
evaluated various aspects of information security at the IRS. We considered the results of these

5
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 3
                    Treasury Inspector General for Tax Administration – Federal
                 Information Security Management Act Report for Fiscal Year 2013



audits in our evaluation, as well as results from ongoing audits for which draft reports were
issued to the IRS by August 8, 2013.
Based on our FY 2013 FISMA evaluation, we determined that nine of the 11 security program
areas were generally compliant with the FISMA requirements. The following six security
program areas included all of the program attributes specified by the DHS’s FY 2013 Inspector
General Federal Information Security Management Act Reporting Metrics:
    •   Continuous Monitoring Management.
    •   Risk Management.
    •   Plan of Action and Milestones.
    •   Contingency Planning.
    •   Contractor Systems.
    •   Security Capital Planning.
The following three security program areas, while generally compliant, were not fully effective
due to one program attribute that was missing or not working as intended:
    •   Incident Response and Reporting.
    •   Security Training.
    •   Remote Access Management.
However, two security program areas were not compliant with FISMA requirements and did not
meet the level of performance specified by the DHS’s FY 2013 Inspector General Federal
Information Security Management Act Reporting Metrics due to the majority of the
DHS-specified attributes being missing or not working as intended:
    •   Configuration Management.
    •   Identity and Access Management
Until the IRS takes steps to improve its security program deficiencies and fully implement all
11 security program areas required by FISMA, taxpayer data will remain vulnerable to
inappropriate use, modification, or disclosure, possibly without being detected.
The following matrix 6 presents TIGTA’s results for the 11 security program areas as specified by
the DHS’s FY 2013 Inspector General Federal Information Security Management Act Reporting
Metrics. We have provided comments to support the “no” responses. TIGTA’s results will be



6
 Many abbreviations in this matrix are used as presented in the original document and are not defined therein.
However, we have provided the definitions in the Abbreviations page after the Table of Contents of this report.

                                                                                                            Page 4
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2013



consolidated with the Department of the Treasury Office of Inspector General’s results of
non-IRS bureaus and reported to the OMB.




                                                                                            Page 5
                    Treasury Inspector General for Tax Administration – Federal
                 Information Security Management Act Report for Fiscal Year 2013



1: Continuous Monitoring
Status of Continuous            1.1. Has the organization established an enterprisewide continuous monitoring
Monitoring Program                   program that assesses the security state of information systems that is
[check one: Yes or No]    Yes        consistent with FISMA requirements, OMB policy, and applicable NIST
                                     guidelines? Besides the improvement opportunities that may have been
                                     identified by the OIG, does the program include the following attributes?
                                    1.1.1. Documented policies and procedures for continuous monitoring
                          Yes
                                    (NIST SP 800-53: CA-7).
                                    1.1.2. Documented strategy and plans for continuous monitoring
                          Yes
                                    (NIST SP 800-37 Rev 1, Appendix G).
                                    1.1.3. Ongoing assessments of security controls (system-specific, hybrid, and
                          Yes       common) that have been performed based on the approved continuous
                                    monitoring plans (NIST SP 800-53, NIST 800-53A).
                                    1.1.4. Provides authorizing officials and other key system officials with
                                    security status reports covering updates to security plans and security
                          Yes       assessment reports, as well as a common and consistent POA&M program
                                    that is updated with the frequency defined in the strategy and/or plans
                                    (NIST SP 800-53, 800-53A).
                                1.2. Please provide any additional information on the effectiveness of the
                                organization’s Continuous Monitoring Management Program that was not noted in
                                the questions above.
                                TIGTA Comments: The IRS’s annual assessments of system security controls are
                                predominantly manual. The IRS’s strategy for automating continuous monitoring
                                includes the implementation of a tool called Archer, which will be a central
                                repository and analysis engine for assessment results, such as automated
                                vulnerability scans. Archer is in its initial development phases.


2: Configuration Management
Status of Configuration         2.1 Has the organization established a security configuration management
Management Program                  program that is consistent with FISMA requirements, OMB policy, and
[check one: Yes or No]    No        applicable NIST guidelines? Besides the improvement opportunities that may
                                    have been identified by the OIG, does the program include the following
                                    attributes?
                          Yes       2.1.1. Documented policies and procedures for configuration management.
                          Yes       2.1.2. Defined standard baseline configurations.




                                                                                                          Page 6
   Treasury Inspector General for Tax Administration – Federal
Information Security Management Act Report for Fiscal Year 2013



             2.1.3. Assessments of compliance with baseline configurations.
             TIGTA Comments: The IRS has not deployed automated mechanisms to
             centrally manage, apply, and verify baseline configuration settings and
             produce FISMA compliance reports using the NIST-defined Security Content
      No     Automation Protocol (SCAP) format. During FY 2013, the IRS was in the
             process of implementing the Security Compliance Posture Monitoring and
             Reporting application, which is intended to provide the ability to assess
             compliance with baseline security controls in a SCAP-compliant format on an
             enterprisewide level; however, its implementation has been delayed.
             2.1.4. Process for timely (as specified in organization policy or standards)
             remediation of scan result deviations.

      No     TIGTA Comments: The IRS has not yet fully implemented vulnerability
             scanning tools and processes on all systems to ensure timely remediation of
             scan result deviations. Also, the IRS processes to share vulnerability
             information to system owners and administrators are still under development.
             2.1.5. For Windows-based components, USGCB secure configuration settings
      Yes    are fully implemented, and any deviations from USGCB baseline settings are
             fully documented.
             2.1.6. Documented proposed or actual changes to the hardware and software
             configurations.
             TIGTA Comments: The IRS has not yet fully implemented configuration and
      No     change management controls to ensure that proposed or actual changes to
             hardware and software configurations are documented and controlled. During
             FY 2013, the Enterprise Services organization was in the process of
             implementing the Enterprise Configuration Management System to provide
             an enterprise solution for configuration and change management.
             2.1.7. Process for the timely and secure installation of software patches.
             TIGTA Comments: The IRS has not yet fully implemented a process to
             ensure timely and secure installation of software patches. During FY 2013,
             the IRS was in the process of evaluating tools that have the capability to
      No     perform automated patch management activities across a multitude of
             technologies and feed results to a centralized location. During the FY 2013
             FISMA evaluation period, TIGTA and the Government Accountability Office
             (GAO) identified critical patches that were missing or installed in an untimely
             manner on IRS computers.
             2.1.8. Software assessing (scanning) capabilities are fully implemented.
             (NIST SP 800-53: RA-5, SI-2)
      No
             TIGTA Comments: Monthly vulnerability scans are not being performed on
             all systems.




                                                                                     Page 7
                    Treasury Inspector General for Tax Administration – Federal
                 Information Security Management Act Report for Fiscal Year 2013



                                   2.1.9. Configuration-related vulnerabilities, including scan findings, have
                                   been remediated in a timely manner, as specified in organization policy or
                                   standards. (NIST SP 800-53: CM-4, CM-6, RA-5, SI-2)
                                   TIGTA Comments: The IRS has not yet fully implemented vulnerability
                         No        scanning tools and processes on all systems to ensure timely remediation of
                                   scan result deviations. Also, IRS processes to share vulnerability information
                                   with system owners and administrators are still under development. During
                                   the FY 2013 FISMA evaluation period, TIGTA and the GAO identified
                                   servers that were not consistently configured to have strong controls.
                                   2.1.10. Patch management process is fully developed, as specified in
                                   organization policy or standards. (NIST SP 800-53: CM-3, SI-2)
                                   TIGTA Comments: The IRS has not yet implemented a process to ensure
                                   timely and secure installation of software patches. During FY 2013, the IRS
                         No        was in the process of evaluating tools that have the capability to perform
                                   automated patch management activities across a multitude of technologies
                                   and feed results to a centralized location. During FY 2013, TIGTA and the
                                   GAO identified critical patches that were missing or installed in an untimely
                                   manner on IRS computers.
                               2.2. Please provide any additional information on the effectiveness of the
                               organization’s Configuration Management Program that was not noted in the
                               questions above.


3: Identity and Access Management
Status of Identity and         3.1 Has the organization established an identity and access management program
Access Management                  that is consistent with FISMA requirements, OMB policy, and applicable
Program [check one:      No        NIST guidelines and identifies users and network devices? Besides the
Yes or No]                         improvement opportunities that may have been identified by the OIG, does
                                   the program include the following attributes?
                                   3.1.1. Documented policies and procedures for account and identity
                         Yes
                                   management. (NIST SP 800-53: AC-1)
                                   3.1.2. Identifies all users, including Federal employees, contractors, and
                                   others who access organization systems. (NIST SP 800-53: AC-2)

                         No        TIGTA Comments: The IRS has not fully implemented unique user
                                   identification that complies with Homeland Security Presidential Directive-12
                                   (HSPD-12). In addition, five of our 10 sampled systems did not have the
                                   NIST SP 800-53 AC-2 security control in place.

                                   3.1.3. Identifies when special access requirements (e.g., multifactor
                                   authentication) are necessary.
                         No
                                   TIGTA Comments: The IRS did not fully implement multifactor
                                   authentication in compliance with HSPD-12.



                                                                                                           Page 8
   Treasury Inspector General for Tax Administration – Federal
Information Security Management Act Report for Fiscal Year 2013



             3.1.4. If multifactor authentication is in use, it is linked to the organization’s
             PIV program where appropriate. (NIST SP 800-53: IA-2)

      No     TIGTA Comments: The IRS has not fully deployed multifactor
             authentication via the use of an HSPD-12 PIV card for all users for network
             and local access to nonprivileged or privileged accounts as required by
             HSPD-12.
             3.1.5. Organization has planned for implementation of PIV for logical access
             in accordance with government policies. (HSPD-12, FIPS 201, OMB M-05-
             24, OMB M-07-06, OMB M-08-01, OMB M-11-11)
      No     TIGTA Comments: Although the IRS is working to achieve its goal of
             85 percent mandatory PIV use by the end of Calendar Year 2013,
             considerable challenges still exist for achieving full compliance due to its
             legacy environment.
             3.1.6. Organization has adequately planned for implementation of PIV for
      Yes    physical access in accordance with government policies. (HSPD-12,
             FIPS 201, OMB M-05-24, OMB M-07-06, OMB M-08-01, OMB M-11-11)
             3.1.7. Ensures that the users are granted access based on needs and
             separation-of-duties principles.
      No     TIGTA Comments: During FY 2013, TIGTA and the GAO identified users
             that had been granted more access than needed and instances where the
             separation-of-duties principle was not enforced.
             3.1.8. Identifies devices with IP addresses that are attached to the network and
             distinguishes these devices from users. (IP phones, faxes, and printers are
             examples of devices attached to the network that are distinguishable from
      No     desktops, laptops, or servers that have user accounts.)
             TIGTA Comments: During FY 2013, the IRS was still in the process of
             implementing tools to achieve automated asset discovery and asset
             management.
             3.1.9. Identifies all user and non-user accounts. (Refers to user accounts that
             are on a system. Data user accounts are created to pull generic information
      Yes
             from a database or a guest/anonymous account for generic login purposes.
             They are not associated with a single user or a specific group of users.)
             3.1.10. Ensures that accounts are terminated or deactivated once access is no
             longer required.
      No     TIGTA Comments: During FY 2013, TIGTA and the GAO identified
             systems that do not have controls in place to ensure that accounts are
             terminated or deactivated once access is no longer needed.
      Yes    3.1.11. Identifies and controls use of shared accounts.




                                                                                        Page 9
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2013



                               3.2. Please provide any additional information on the effectiveness of the
                               organization’s Identity and Access Management that was not noted in the
                               questions above.


4: Incident Response and Reporting
Status of Incident             4.1 Has the organization established an incident response and reporting program
Response and Reporting             that is consistent with FISMA requirements, OMB policy, and applicable
                         Yes
Program [check one:                NIST guidelines? Besides the improvement opportunities that may have been
Yes or No]                         identified by the OIG, does the program include the following attributes?
                                   4.1.1. Documented policies and procedures for detecting, responding to, and
                         Yes
                                   reporting incidents. (NIST SP 800-53: IR-1)
                         Yes       4.1.2. Comprehensive analysis, validation, and documentation of incidents.
                                   4.1.3. When applicable, reports to US-CERT within established time frames.
                                   (NIST SP 800-53, 800-61 OMB M-07-16, M-06-19)
                         No        TIGTA Comments: The IRS did not always report incidents involving
                                   Personally Identifiable Information to the US-CERT within established time
                                   frames due to resource constraints.
                                   4.1.4. When applicable, reports to law enforcement within established time
                         Yes
                                   frames. (NIST SP 800-61)
                                   4.1.5. Responds to and resolves incidents in a timely manner, as specified in
                         Yes       organization policy or standards, to minimize further damage.
                                   (NIST SP 800-53, 800-61; OMB M-07-16, M-06-19)
                                   4.1.6. Is capable of tracking and managing risks in a virtual/cloud
                         Yes
                                   environment, if applicable.
                         Yes       4.1.7. Is capable of correlating incidents.
                                   4.1.8. Has sufficient incident monitoring and detection coverage in
                         Yes       accordance with Government policies. (NIST SP 800-53, 800-61;
                                   OMB M-07-16, M-06-19)
                               4.2. Please provide any additional information on the effectiveness of the
                               organization’s Incident Management Program that was not noted in the questions
                               above.


5: Risk Management
Status of Risk                 5.1 Has the organization established a risk management program that is consistent
Management Program                 with FISMA requirements, OMB policy, and applicable NIST guidelines?
                         Yes
[check one: Yes or No]             Besides the improvement opportunities that may have been identified by the
                                   OIG, does the program include the following attributes?




                                                                                                            Page 10
   Treasury Inspector General for Tax Administration – Federal
Information Security Management Act Report for Fiscal Year 2013



             5.1.1. Documented policies and procedures for risk management, including
      Yes
             descriptions of the roles and responsibilities of participants in this process.
             5.1.2. Addresses risk from an organization perspective with the development
      Yes    of a comprehensive governance structure and organizationwide risk
             management strategy as described in NIST SP 800-37, Rev.1.
             5.1.3. Addresses risk from a mission and business process perspective and is
      Yes    guided by the risk decisions from an organizational perspective, as described
             in NIST SP 800-37, Rev. 1.
             5.1.4. Addresses risk from an information system perspective and is guided by
      Yes    the risk decisions at the organizational perspective and the mission and
             business perspective, as described in NIST SP 800-37, Rev. 1.
      Yes    5.1.5. Has an up-to-date system inventory.
             5.1.6. Categorizes information systems in accordance with Government
      Yes
             policies.
      Yes    5.1.7. Selects an appropriately tailored set of baseline security controls.
             5.1.8. Implements the tailored set of baseline security controls and describes
      Yes    how the controls are employed within the information system and its
             environment of operation.
             5.1.9. Assesses the security controls using appropriate assessment procedures
             to determine the extent to which the controls are implemented correctly,
      Yes
             operating as intended, and producing the desired outcome with respect to
             meeting the security requirements for the system.
             5.1.10. Authorizes information system operation based on a determination of
             the risk to organizational operations and assets, individuals, other
      Yes
             organizations, and the Nation resulting from the operation of the information
             system and the decision that this risk is acceptable.
             5.1.11. Ensures that information security controls are monitored on an
             ongoing basis, including assessing control effectiveness, documenting
      Yes    changes to the system or its environment of operation, conducting security
             impact analyses of the associated changes, and reporting the security state of
             the system to designated organizational officials.
             5.1.12. Information-system-specific risks (tactical), mission/business-specific
      Yes    risks, and organizational-level (strategic) risks are communicated to
             appropriate levels of the organization.
             5.1.13. Senior officials are briefed on threat activity on a regular basis by
      Yes
             appropriate personnel (e.g., Chief Information Security Officer).
             5.1.14. Prescribes the active involvement of information system owners and
             common control providers, chief information officers, senior information
      Yes
             security officers, authorizing officials, and other roles as applicable in the
             ongoing management of information-system-related security risks.


                                                                                     Page 11
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2013



                                   5.1.15. Security authorization package contains system security plan, security
                         Yes       assessment report, and POA&M in accordance with Government policies.
                                   (NIST SP 800-18, 800-37)
                                   5.1.16. Security authorization package contains accreditation boundaries,
                         Yes       defined in accordance with Government policies, for organization information
                                   systems.
                               5.2. Please provide any additional information on the effectiveness of the
                               organization’s Risk Management Program that was not noted in the questions
                               above.


6: Security Training
Status of Security             6.1 Has the organization established a security training management program that
Training Program                   is consistent with FISMA requirements, OMB policy, and applicable NIST
                         Yes
[check one: Yes or No]             guidelines? Besides the improvement opportunities that may have been
                                   identified by the OIG, does the program include the following attributes?
                                   6.1.1. Documented policies and procedures for security awareness training.
                         Yes
                                   (NIST SP 800-53: AT-1)
                                   6.1.2. Documented policies and procedures for specialized training for users
                         Yes
                                   with significant information security responsibilities.
                                   6.1.3. Security training content based on the organization and roles, as
                         Yes
                                   specified in organization policy or standards.
                                   6.1.4. Identification and tracking of the status of security awareness training
                         Yes       for all personnel (including employees, contractors, and other organization
                                   users) with access privileges that require security awareness training.
                                   6.1.5. Identification and tracking of the status of specialized training for all
                                   personnel (including employees, contractors, and other organization users)
                                   with significant information security responsibilities that require specialized
                         No        training.
                                   TIGTA Comments: The IRS did not track completions of specialized
                                   information technology security training by contractors during the FY 2013
                                   FISMA evaluation period.
                                   6.1.6. Training material for security awareness training contains appropriate
                         Yes
                                   content for the organization. (NIST SP 800-50, 800-53)
                               6.2. Please provide any additional information on the effectiveness of the
                               organization’s Security Training Program that was not noted in the questions
                               above.




                                                                                                           Page 12
                  Treasury Inspector General for Tax Administration – Federal
               Information Security Management Act Report for Fiscal Year 2013



7: POA&M
Status of POA&M             7.1 Has the organization established a POA&M program that is consistent with
Program [check one:             FISMA requirements, OMB policy, and applicable NIST guidelines and
Yes or No]            Yes       tracks and monitors known information security weaknesses? Besides the
                                improvement opportunities that may have been identified by the OIG, does
                                the program include the following attributes?
                                7.1.1. Documented policies and procedures for managing IT security
                      Yes       weaknesses discovered during security control assessments and that require
                                remediation.
                      Yes       7.1.2. Tracks, prioritizes, and remediates weaknesses.
                      Yes       7.1.3. Ensures that remediation plans are effective for correcting weaknesses.
                      Yes       7.1.4. Establishes and adheres to milestone remediation dates.
                                7.1.5. Ensures that resources and ownership are provided for correcting
                      Yes
                                weaknesses.
                                7.1.6. POA&Ms include security weaknesses discovered during assessments
                                of security controls and that require remediation (do not need to include
                      Yes
                                security weaknesses due to a risk-based decision to not implement a security
                                control). (OMB M-04-25)
                                7.1.7. Costs associated with remediating weaknesses are identified.
                      Yes
                                (NIST SP 800-53: PM-3; OMB M-04-25)
                                7.1.8. Program officials report progress on remediation to the CIO on a
                                regular basis, at least quarterly, and the CIO centrally tracks, maintains, and
                      Yes
                                independently reviews/validates the POA&M activities at least quarterly.
                                (NIST SP 800-53: CA-5; OMB M-04-25)
                            7.2. Please provide any additional information on the effectiveness of the
                            organization’s POA&M Program that was not noted in the questions above.


8: Remote Access Management
Status of Remote            8.1 Has the organization established a remote access program that is consistent
Access Management               with FISMA requirements, OMB policy, and applicable NIST guidelines?
                      Yes
Program [check one:             Besides the improvement opportunities that may have been identified by the
Yes or No]                      OIG, does the program include the following attributes?
                                8.1.1. Documented policies and procedures for authorizing, monitoring, and
                      Yes
                                controlling all methods of remote access. (NIST SP 800-53: AC-1, AC-17)
                                8.1.2. Protects against unauthorized connections or subversion of authorized
                      Yes
                                connections.




                                                                                                       Page 13
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2013



                                   8.1.3. Users are uniquely identified and authenticated for all access.
                                   (NIST SP 800-46, Section 4.2, Section 5.1)
                                   TIGTA Comments: System administrators of the virtual private network
                         No        infrastructure and server components do not use NIST-compliant multifactor
                                   authentication for local or network access to privileged accounts. In addition,
                                   virtual private network server components do not comply with password
                                   requirements.
                                   8.1.4. Telecommuting policy is fully developed. (NIST SP 800-46, Section
                         Yes
                                   5.1)
                                   8.1.5. If applicable, multifactor authentication is required for remote access.
                         Yes
                                   (NIST SP 800-46, Section 2.2, Section 3.3)
                                   8.1.6. Authentication mechanisms meet NIST SP 800-63 guidance on remote
                         Yes
                                   electronic authentication, including strength mechanisms.
                                   8.1.7. Defines and implements encryption requirements for information
                         Yes
                                   transmitted across public networks.
                                   8.1.8. Remote access sessions, in accordance to OMB M-07-16, are timed-out
                         Yes
                                   after 30 minutes of inactivity, after which re-authentication is required.
                                   8.1.9. Lost or stolen devices are disabled and appropriately reported.
                         Yes
                                   (NIST SP 800-46, Section 4.3; US-CERT Incident Reporting Guidelines)
                                   8.1.10. Remote access rules of behavior are adequate in accordance with
                         Yes
                                   Government policies. (NIST SP 800-53: PL-4)
                                   8.1.11. Remote access user agreements are adequate in accordance with
                         Yes
                                   Government policies. (NIST SP 800-46, Section 5.1; NIST SP 800-53: PS-6)
                               8.2. Please provide any additional information on the effectiveness of the
                               organization’s Remote Access Management that was not noted in the questions
                               above.
                               8.3. Does the organization have a policy to detect and remove unauthorized
                         Yes
                               (rogue) connections?


9: Contingency Planning
Status of Contingency          9.1 Has the organization established an enterprisewide business
Planning Program                   continuity/disaster recovery program that is consistent with FISMA
[check one: Yes or No]   Yes       requirements, OMB policy, and applicable NIST guidelines? Besides the
                                   improvement opportunities that may have been identified by the OIG, does
                                   the program include the following attributes?
                                   9.1.1. Documented business continuity and disaster recovery policy providing
                         Yes       the authority and guidance necessary to reduce the impact of a disruptive
                                   event or disaster. (NIST SP 800-53: CP-1)



                                                                                                            Page 14
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2013



                                 9.1.2. The organization has incorporated the results of its system’s Business
                                 Impact analysis into the analysis and strategy development efforts for the
                       Yes
                                 organization’s Continuity of Operations Plan, Business Continuity Plan, and
                                 Disaster Recovery Plan. (NIST SP 800-34)
                                 9.1.3. Development and documentation of division, component, and IT
                       Yes
                                 infrastructure recovery strategies, plans, and procedures. (NIST SP 800-34)
                       Yes       9.1.4. Testing of system-specific contingency plans.
                                 9.1.5. The documented business continuity and disaster recovery plans are in
                       Yes
                                 place and can be implemented when necessary. (FCD1, NIST SP 800-34)
                                 9.1.6. Development of test, training, and exercises programs. (FCD1, NIST
                       Yes
                                 SP 800-34, NIST SP 800-53)
                                 9.1.7. Testing or exercising of business continuity and disaster recovery plans
                       Yes
                                 to determine effectiveness and to maintain current plans.
                                 9.1.8. After-action report that addresses issues identified during
                       Yes
                                 contingency/disaster recovery exercises. (FDC1, NIST SP 800-34)
                                 9.1.9. Systems that have alternate processing sites. (FCD1, NIST SP 800-34,
                       Yes
                                 NIST SP 800-53)
                                 9.1.10. Alternate processing sites are not subject to the same risks as primary
                       Yes
                                 sites. (FCD1, NIST SP 800-34, NIST SP 800-53)
                                 9.1.11. Backups of information that are performed in a timely manner.
                       Yes
                                 (FCD1, NIST SP 800-34, NIST SP 800-53)
                       Yes       9.1.12. Contingency planning that considers supply chain threats.
                             9.2. Please provide any additional information on the effectiveness of the
                             organization’s Contingency Planning that was not noted in the questions above.


10: Contractor Systems
Status of Contractor         10.1 Has the organization established a program to oversee systems operated on
Systems [check one:              its behalf by contractors or other entities, including organization systems and
Yes or No]             Yes       services residing in the cloud external to the organization? Besides the
                                 improvement opportunities that may have been identified by the OIG, does
                                 the program include the following attributes?
                                 10.1.1. Documented policies and procedures for information security
                                 oversight of systems operated on the organization’s behalf by contractors or
                       Yes
                                 other entities, including organization systems and services residing in a public
                                 cloud.
                                 10.1.2. The organization obtains sufficient assurance that security controls of
                       Yes       such systems and services are effectively implemented and comply with
                                 Federal and organization guidelines. (NIST SP 800-53: CA-2)


                                                                                                       Page 15
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2013



                                    10.1.3. A complete inventory of systems operated on the organization’s behalf
                                    by contractors or other entities, including organization systems and services
                                    residing in a public cloud.
                                    TIGTA Comments: In FY 2013, the IRS maintained two contractor managed
                                    systems in the Trusted Agent FISMA, the U.S. Department of the Treasury’s
                          Yes       system for reporting FISMA data. The IRS also maintained a list of 130
                                    contractor sites in FY 2013 that required annual security reviews because
                                    each handles or processes IRS information. The IRS Infrastructure and
                                    Security Review organization conducts reviews to ensure that security
                                    controls and standards are met and issues reports of findings to these
                                    contractors.
                                    10.1.4. The inventory identifies interfaces between these systems and
                          Yes
                                    organization-operated systems. (NIST SP 800-53: PM-5)
                                    10.1.5. The organization requires appropriate agreements (e.g.,
                                    Memorandums of Understanding, Interconnection Security Agreements,
                          Yes
                                    contracts) for interfaces between these systems and those that it owns and
                                    operates.
                          Yes       10.1.6. The inventory of contractor systems is updated at least annually.
                                    10.1.7. Systems that are owned or operated by contractors or entities,
                                    including organization systems and services residing in a public cloud, are
                          Yes
                                    compliant with FISMA requirements, OMB policy, and applicable NIST
                                    guidelines.
                                10.2. Please provide any additional information on the effectiveness of the
                                organization’s Contractor Systems that was not noted in the questions above.


11: Security Capital Planning
Status of Security              11.1 . Has the organization established a security capital planning and investment
Capital Planning [check              program for information security? Besides the improvement opportunities
                          Yes
one: Yes or No]                      that may have been identified by the OIG, does the program include the
                                     following attributes?
                                    11.1.1. Documented policies and procedures to address information security
                          Yes
                                    in the capital planning and investment control process.
                                    11.1.2. Includes information security requirements as part of the capital
                          Yes
                                    planning and investment process.
                                    11.1.3. Establishes a discrete line item for information security in
                          Yes
                                    organizational programming and documentation. (NIST SP 800-53: SA-2)
                                    11.1.4. Employs a business case/Exhibit 300/Exhibit 53 to record the
                          Yes
                                    information security resources required. (NIST SP 800-53: PM-3)
                                    11.1.5. Ensures that information security resources are available for
                          Yes
                                    expenditure as planned.

                                                                                                            Page 16
   Treasury Inspector General for Tax Administration – Federal
Information Security Management Act Report for Fiscal Year 2013



          11.2. Please provide any additional information on the effectiveness of the
          organization’s Security Capital Planning that was not noted in the questions
          above.




                                                                                   Page 17
                       Treasury Inspector General for Tax Administration – Federal
                    Information Security Management Act Report for Fiscal Year 2013



                                                                                                      Appendix I


             Detailed Objective, Scope, and Methodology

Our overall objective was to provide an annual independent evaluation of the effectiveness of the
IRS’s information technology security program and practices, and to assess the progress made by
the IRS in meeting the responsibilities established by the NIST and the OMB. The following
11 evaluative sections are taken directly from the DHS FY 2013 Inspector General Federal
Information Security Management Act Reporting Metrics, issued on November 30, 2012.
       1.    Continuous Monitoring Management.
       2.    Configuration Management.
       3.    Identity and Access Management.
       4.    Incident Response and Reporting.
       5.    Risk Management.
       6.    Security Training.
       7.    Plan of Action and Milestones.
       8.    Remote Access Management.
       9.    Contingency Planning.
       10.   Contractor Systems.
       11.   Security Capital Planning.
To accomplish our objective, we reviewed a judgmental sample 1 of 10 major IRS information
systems from a total of 75 major applications maintained in the Trusted Agent FISMA system as
of April 11, 2013. We selected a judgmental sample because we did not plan to project the
results. We conducted tests to determine the appropriate level of performance that the IRS has
achieved for each of the security program areas. We also evaluated completed TIGTA work
during the FISMA period, as well as audits from the GAO, and determined its applicability to the
FISMA questions.
Based on our evaluative work, we indicated with a yes or no whether the IRS had achieved a
satisfactory level of performance for each security program area as well as each specific attribute
listed in the DHS FY 2013 Inspector General Federal Information Security Management Act
Reporting Metrics. The Department of the Treasury Office of Inspector General will combine



1
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 18
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2013



our results for the IRS with its results for the non-IRS bureaus and submit the combined yes or
no responses to OMB.




                                                                                         Page 19
                Treasury Inspector General for Tax Administration – Federal
             Information Security Management Act Report for Fiscal Year 2013



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Jody Kitazono, Audit Manager
Midori Ohno, Lead Auditor
Charles Ekunwe, Senior Auditor
Bret Hunter, Senior Auditor
Mary Jankowski, Senior Auditor
Esther Wilson, Senior Auditor
Tina Wong, Senior Auditor




                                                                                     Page 20
                Treasury Inspector General for Tax Administration – Federal
             Information Security Management Act Report for Fiscal Year 2013



                                                                    Appendix III

                         Report Distribution List

Principal Deputy Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner for Operations Support OS
Chief Technology Officer OS:CTO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                          Page 21
              Treasury Inspector General for Tax Administration – Federal
           Information Security Management Act Report for Fiscal Year 2013



                                                                           Appendix IV

 Treasury Inspector General for Tax Administration
  Information Technology Security-Related Reports
Issued During the Fiscal Year 2013 Evaluation Period

 1. TIGTA, Ref. No. 2012-20-099, Audit Trails Did Not Comply With Standards or Fully
    Support Investigations of Unauthorized Disclosure of Taxpayer Data (Sept. 2012).
 2. TIGTA, Ref. No. 2012-20-112, An Enterprise Approach Is Needed to Address the
    Security Risk of Unpatched Computers (Sept. 2012).
 3. TIGTA, Ref. No. 2012-20-109, The Customer Account Data Engine 2 Database Was
    Initialized; However, Database and Security Risks Remain, and Initial Timeframes to
    Provide Data to Three Downstream Systems May Not Be Met (Sept. 2012).
 4. TIGTA, Ref. No. 2012-20-115, Using SmartID Cards to Access Computer Systems Is
    Taking Longer Than Expected (Sept. 2012).
 5. TIGTA, Ref. No. 2013-20-016, Significant Delays Hindered Efforts to Provide
    Continuous Monitoring of Security Settings on Computer Workstations (Jan. 2013).
 6. TIGTA, Ref. No. 2013-20-023, Improvements Are Needed to Ensure the Effectiveness of
    the Privacy Impact Assessment Process (Feb. 2013).
 7. TIGTA, Ref. No. 2013-20-030, Integrated Financial System Updates Are Improving
    System Security, but Remaining Weaknesses Should Be Addressed (Mar. 2013).




                                                                                   Page 22
